<html>
<title> - COMBATING METHAMPHETAMINES THROUGH PREVENTION AND EDUCATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
      COMBATING METHAMPHETAMINES THROUGH PREVENTION AND EDUCATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           November 17, 2005

                               __________

                           Serial No. 109-28

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-605                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Vernon J. Ehlers, Michigan           Robert E. Andrews, New Jersey
Judy Biggert, Illinois               Robert C. ``Bobby'' Scott, 
Todd Russell Platts, Pennsylvania        Virginia
Ric Keller, Florida                  Ruben Hinojosa, Texas
Joe Wilson, South Carolina           Ron Kind, Wisconsin
Marilyn N. Musgrave, Colorado        Dennis J. Kucinich, Ohio
Bobby Jindal, Louisiana              Susan A. Davis, California
John R. ``Randy'' Kuhl, Jr., New     George Miller, California, ex 
    York                                 officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 17, 2005................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     1
        Prepared statement of....................................     3
    Hooley, Hon. Darlene, a Representative in Congress from the 
      State of Oregon............................................     6
        Prepared statement of....................................     8
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana...........................................    11
        Prepared statement of....................................    13

Statement of Witnesses:
    Cain, Cristi, State Coordinator, Kansas Methamphetamine 
      Prevention Project, Topeka, KS.............................    46
        Prepared statement of....................................    48
    Denniston, Robert, Director, National Youth Anti-Drug Media 
      Campaign, Office of National Drug Control Policy, Executive 
      Office of the President, on behalf of Hon. Mary Ann 
      Solberg, Deputy Director, Office of National Drug Control 
      Policy, Executive Office of the President..................    23
        Prepared statement of Ms. Solberg........................    25
    Icenogle, Hon. John, District Court Judge, 9th Judicial 
      District of Nebraska, Buffalo County, NE...................    29
        Prepared statement of....................................    31
    Spoth, Dr. Richard, PhD, Director, Partnerships in Prevention 
      Science Institute, Iowa State University, Ames, IA.........    33
        Prepared statement of....................................    35



      COMBATING METHAMPHETAMINES THROUGH PREVENTION AND EDUCATION

                              ----------                              


                      Thursday, November 17, 2005

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2175, Rayburn House Office Building, Hon. Michael N. 
Castle [Chairman of the Subcommittee] presiding.
    Members present: Representatives Castle, Osborne, Souder, 
Musgrave, Davis of Illinois, Grijalva, and Hinojosa.
    Staff present: Richard Hoar, Professional Staff Member; 
Lucy House, Legislative Assistant; Kimberly Ketchel, 
Communications Staff Assistant; Krisann Pearce, Deputy Director 
of Education and Human Resources Policy; Whitney Rhoades, 
Professional Staff Member; Deborah L. Emerson Samantar, 
Committee Clerk/Intern Coordinator; Jo-Marie St. Martin, 
General Counsel; Toyin Alli, Staff Assistant/Education; Lloyd 
Horwich, Legislative Associate/Education; Ricardo Martinez, 
Legislative Associate/Education; Joe Novotny, Legislative 
Assistant/Education.
    Chairman Castle. A quorum being present, the Subcommittee 
on Education Reform will come to order.
    We are meeting today to hear testimony on combating 
methamphetamines through prevention and education.
    Under Committee Rule 12(b), opening statements are limited 
to the chairman and the ranking minority member of the 
subcommittee, who is Mr. Grijalva today. Therefore, if other 
members have statements, they may be included in the hearing 
record.
    With that, I ask unanimous consent that the hearing record 
remain open 14 days so that all member statements and other 
exchanges of material referenced during the hearing could be 
submitted in the official hearing record. Without objection, so 
ordered.
    Thank you for joining us today to hear testimony on 
methamphetamine prevention and education. We welcome the 
testimony of our witnesses as we seek to understand the nature 
of the meth problem in this country as well as some of the 
ongoing prevention and education efforts employed by local 
areas, states and the Federal Government that have been 
effective in combating the production and use of this dangerous 
drug.
    We thank you, the panelists--panelist, singular, right 
now--for joining us today and appreciate your thoughts.
    Methamphetamine, also known as meth, is one of the most 
powerful and dangerous stimulants available. It is fairly easy 
to produce because it can be created from common household or 
agricultural chemicals and cold medicines like ephedrine and 
pseudoephedrine.
    According to the National Institute on Drug Abuse, NIDA, 
meth is a powerfully addictive stimulant associated with 
serious health conditions, including memory loss, aggression, 
violence, psychotic behavior and potential heart and 
neurological damage.
    Meth abuse was once considered a regional problem 
concentrated mainly in southern and central California. 
Although this drug was once dominant in the west, it is now 
spreading throughout other regions of the country and emerging 
in cities and rural settings thought previously to be 
unaffected by the drug.
    According to the 2003 National Survey on Drug Use and 
Health, 12.3 million Americans aged 12 and older have tried 
methamphetamine at least once in their lifetimes.
    Meth production and abuse affect more than just the adults 
directly involved with this drug. Many children are being 
neglected by their addicted parents. The children who are 
removed from meth homes are often sick, and many wind up in 
foster homes.
    The number of foster care children has been rising rapidly 
in states that have been hit by the meth program. As these 
children are moved around in the social service system, their 
parents may be in jail, awaiting treatment or not seeking 
treatment.
    Children who are the victims of the methamphetamine 
epidemic are presenting many unique challenges to schools, 
social service workers, foster parents, counselors and adoption 
workers.
    The Federal Government has recognized the importance that 
drug prevention and education efforts play in our communities. 
Prevention is also the most cost-effective approach to the drug 
problem, sparing society the cost of treatment, rehabilitation, 
lost productivity and other sociopathologies.
    The administration oversees a number of prevention programs 
including through the Office of National Drug Control Policy 
and the Drug Enforcement Administration. Additionally, the 
Department of Education administers the Safe and Drug-Free 
Schools and Communities program, which is the Federal 
Government's major initiative to prevent drug abuse and 
violence in and around schools.
    I look forward to hearing from our witnesses about drug 
prevention strategies that have been successful locally and 
nationally and where additional education and prevention 
efforts should focus.
    Before yielding to Mr. Grijalva, I want to announce that 
unfortunately, because of my schedule, I am not going to be 
able to stay for the remainder of the hearing, so the vice 
chair of this subcommittee, Mr. Osborne, will now take over.
    And at this time, I yield to Mr. Grijalva for whatever 
opening statement he wishes to make.
    [The opening statement of Mr. Castle follows:]

Statement of Hon. Michael N. Castle, a Representative in Congress from 
                         the State of Delaware

    Good morning. Thank you for joining us today to hear testimony on 
methamphetamine prevention and education. We welcome the testimony of 
our witnesses as we seek to understand the nature of the meth problem 
in this country as well as some of the ongoing prevention and education 
efforts employed by local areas, states, and the federal government 
that have been effective in combating the production and use of this 
dangerous drug. We thank you, the panelists, for joining us today and 
appreciate your insights.
    Methamphetamine, also known as ``meth,'' is one of the most 
powerful and dangerous stimulants available. It is fairly easy to 
produce because it can be created from common household or agricultural 
chemicals and cold medicines like ephedrine and pseudoephedrine. 
According to the National Institute on Drug Abuse (NIDA), meth is ``a 
powerfully addictive stimulant associated with serious health 
conditions, including memory loss, aggression, violence, psychotic 
behavior, and potential heart and neurological damage.''
    Meth abuse was once considered a regional problem, concentrated 
mainly in southern and central California. Although this drug was once 
dominant in the West, it is now spreading throughout other regions of 
the country and emerging in cities and rural settings thought 
previously to be unaffected by the drug. According to the 2003 National 
Survey on Drug Use and Health, 12.3 million Americans age 12 and older 
had tried methamphetamine at least once in their lifetimes.
    Meth production and abuse affect more than just the adults directly 
involved with the drug. Many children are being neglected by their 
addicted parents. The children who are removed from meth homes are 
often sick and many wind up in foster homes. The number of foster care 
children has been rising rapidly in states that have been hit by the 
meth problem. As these children are moved around in the social service 
system, their parents may be in jail, awaiting treatment, or not 
seeking treatment. Children who are the victims of the methamphetamine 
epidemic are presenting many unique challenges to schools, social 
service workers, foster parents, counselors, and adoption workers.
    The federal government has recognized the importance that drug 
prevention and education efforts play in our communities. Prevention is 
also the most cost-effective approach to the drug problem, sparing 
society the burden of treatment, rehabilitation, lost productivity, and 
other social pathologies. The Administration oversees a number of 
prevention programs, including through the Office of National Drug 
Control Policy and the Drug Enforcement Administration. Additionally, 
the Department of Education administers the Safe and Drug-Free Schools 
and Communities program, which is the federal government's major 
initiative to prevent drug abuse and violence in and around schools.
    I look forward to hearing from our witnesses about drug prevention 
strategies that have been successful locally and nationally and where 
additional education and prevention efforts should focus. I will now 
yield to Congressman Grijalva for any opening statement he may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Mr. Chairman, and thank 
you for holding this very important meeting.
    Ranking Member Woolsey asked me to apologize on her behalf, 
but a critical last-minute schedule change will prevent her 
from attending this hearing.
    Meth is a growing and dangerous national problem of 
epidemic proportions in some areas. No longer confined to the 
Southwest and the West Coast, its use is now also transcending 
social classes and gender. There is no common denominator in 
categorizing a meth user. It could be your neighbor, a family 
member, a teenager, a mom.
    What is common about this drug, however, is that it takes 
lives and ruins communities. Meth abuse affects the very fabric 
of communities nationwide. Just as meth abuse dangerously 
impacts communities, it is also best combated by a unified 
community effort involving parents, schools, retailers, law 
enforcement, health professionals, social service providers, 
treatment providers, and many, many others.
    We are here today to discuss how Congress can play an 
integral role in this community in combating meth abuse through 
prevention and education. In recent years, Congress and the 
states have taken a hard-nosed approach focusing on restricting 
precursor materials and levying increased penalties and 
mandatory minimums.
    My own state has followed suit. The Arizona state 
legislature recently passed a law which limits the sale of 
precursor-like products. But my hometown, Tucson, ravaged by 
meth use in recent years, has taken it one step further. Tucson 
passed an ordinance in October which keeps these materials 
available through over-the-counter drugs locked up behind 
pharmacy counters.
    There is no question that combating meth abuse is one of 
the highest priorities to states and to our country. Arizona 
faces one of the highest overall crime rates in the nation and 
ranks first in the nation in property crime and motor vehicle 
crime.
    It is estimated that an astounding over 80 percent of 
property theft crimes in Arizona are meth-related. And I think 
Arizona reflects our national problem. This July, the National 
Association of Counties surveyed 500 law enforcement agencies 
in 45 states, and nearly 60 percent responded that meth was 
their biggest drug problem.
    There is a silver lining, though. Research confirms that as 
the perception of risk associated with a particular drug 
increases, use of that drug decreases.
    One of my constituents, who is a recovering addict, stated 
if he had known the consequences for his health and the things 
he would do under the influence of meth, he would have never 
tried it. This is the message I think we need to bring home.
    While it is obvious to adults that meth is a terrible 
thing, we cannot assume that that is equally obvious to all 
children and young people.
    I am disillusioned, however, by our government funding 
efforts to this end. President Bush himself has stated that 
prevention is a key component of our drug control strategy and 
agenda. Why, then, have appropriators and agencies cut back on 
funding for prevention efforts?
    In September I received a letter from the Pima Prevention 
Partnership, an antidrug community coalition in my district, 
one of the very entities which is so successful in bringing 
together all members of a community to combat methamphetamine 
use. They informed me that their drug-free communities grant 
had been terminated on questionable grounds and an appeal 
process denied.
    But that was not an isolated incident. Sixty-three other 
coalitions were de-funded by the Office of National Drug 
Control Policy and 88 put on a 30-day probation. Both House and 
Senate appropriations bills cut funding for Safe and Drug-Free 
Schools and community state grants programs after President 
Bush proposed eliminating the state grants altogether.
    The budget and appropriations bills we passed are not 
simply an accounting measure. They are a reflection of our 
values and also a reflection of the urgency of the needs that 
we confront. I do not think the education appropriations bill 
that this House will consider reflects on us very well in that 
regard.
    In closing, I would just like to add that one critical way 
for Congress to show that meth prevention and education is a 
priority is for us to devote more resources to it. My 
colleagues and I on this committee are committed to seeing that 
come to pass.
    Today we have a very distinguished and experienced panel of 
witnesses. Our first panel is Representatives Souder and 
Hooley, who are Members of the Congressional Methamphetamine 
Caucus, who have introduced important methamphetamine bills 
here in Congress. Our second panel will provide insight from 
community, agency, research and judicial points of view.
    Mr. Chairman, thank you for holding this hearing. I look 
forward to hearing from our witnesses about their work to 
promote meth prevention and education programs. Thank you, sir.
    Mr. Osborne. [Presiding.] Thank you, Mr. Grijalva.
    As a point of personal privilege, I would ask maybe that we 
take a quick look at charts here. I am not going to take more 
than about a minute. And then we will start with our first 
panel.
    The chairman of the subcommittee mentioned that there had 
been a movement in methamphetamine abuse across the country. 
You see in 1990 there were two states, California and Texas, 
the red states, that had 20 or more meth labs, and the rest of 
the country was relatively untouched.
    Look at the next picture there, and we see that by 2004 all 
but a handful of states in the northeast had been pretty much 
inundated by methamphetamine. So that movement is very 
pronounced.
    I guess the good news: It is driving heroin and cocaine 
out. The bad news: It is more addictive, it is cheaper and it 
affects more people. And it is currently being distributed now 
by a lot of gangs that were originally distributing cocaine.
    The last slide there simply shows what this does. Top left 
is a young woman, I am assuming somewhere in her early 30's or 
late 20's, and was arrested every year for 10 years. And you 
can see the disintegration. And the bottom left picture is the 
final picture after 10 years. It was taken in a morgue.
    And obviously, she had aged many, many years, maybe 40 
years, 50 years, in a 10-year period. And of course, a lot of 
people do not last that long on this drug. So some very graphic 
instances--recently went into a foster care situation where a 
young girl was 9 years old.
    In her first 5 years, she had been in five different foster 
care situations. At age 5, her father told her no longer wanted 
anything to do with her. He was on meth. And so at age 5--we 
see kids at age 2 and 3 and 4 and, of course, babies affected 
by this drug. It is hugely expensive.
    So having said that, I would like to start with our first 
panelist. Mr. Souder is detained with another vote, and we are 
privileged to have Congresswoman Darlene Hooley here, who has 
served in the 5th District of Oregon since 1997, serves on the 
Financial Services Committee, the Veterans Affairs Committee 
and the Science Committee.
    Representative Hooley has been focused on eradicating 
methamphetamine in her district in Oregon for a number of years 
and has truly been a leader in Congress in this effort, and we 
really appreciate this. She has recently introduced legislation 
to mount a campaign against meth on the regional, national and 
international levels.
    And so I think you understand the lights and, you know, the 
procedures, so, Darlene, we are pleased to have you here today 
and we look forward to your testimony.

STATEMENT OF HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Ms. Hooley. It is my pleasure to be here. Thank you, 
Chairman Osborne and other members of the committee, and thank 
you for all the work that you have done on this issue. It is a 
scourge, and it needs all of our help.
    In my three decades of public service, I do not think I 
have seen a problem as pervasive or damaging as the meth 
epidemic that is sweeping our country. Meth is one of the 
fastest-growing drug problems in the nation.
    Meth is cheap, easy to make, and give addicts an intense, 
long-lasting high, destroys their brain, causes them to abuse 
and neglect their children, and leads to paranoid acts of 
violence.
    Both Congress and state governments have been taking strong 
steps to address the supply of methamphetamine through 
precursor chemical controls and cracking down on international 
meth trade.
    While we have focused on enforcement and precursor 
controls, too often we neglect the prevention and treatment 
piece. We know that both prevention and treatment can be very 
effective, especially from a cost standpoint. If we can use 
prevention programs to keep people from using meth and other 
drugs in the first place, we will save the taxpayer money.
    But even more importantly, we can prevent the wreckage that 
comes when meth destroys an addict, harms a community and 
people around him or her. In fact, in my state, 80 to 90 
percent of all property crimes are committed by meth addicts.
    I am here today to talk about one innovative drug 
prevention program that has proven highly successful in Oregon. 
It is called the Methamphetamine Awareness Project, or MAP. MAP 
uses the creative energy and abilities of young people to 
create prevention messages through film.
    Participating youth learn from and work with prevention and 
treatment specialists, law enforcement officials, their peers 
and professional film-makers to create public service 
announcements or documentaries intended to reduce teen meth use 
and raise community awareness about the dangers of meth.
    The first MAP was during the 2002-2003 school year at 
Oregon's Sheridan High School. The Sheridan students produced a 
powerful 16-minute documentary that is now shown in many 
schools around Oregon.
    The program was so successful in the first year that during 
the next school year, Oregon Partnership moved to Newberg High 
School, where the students produced two amazing television 
commercials that have been broadcast on television stations in 
Portland and have also garnered national attention from the 
Drug Enforcement Administration.
    The first commercial that I am going to show is one of the 
ads.
    (BEGIN VIDEO CLIP)
    ANNOUNCER: Do you want to lose weight fast and have all 
your hair and teeth fall out? If so, methamphetamines could be 
right for you.
    FEMALE: Shooting meth has really improved my self-esteem.
    MALE: My teeth draw tons of attention.
    MALE: I get so much done in such little time.
    FEMALE: Look at all my scabs.
    MALE: And I have met all kinds of interesting people.
    ANNOUNCER: You will be amazed at what meth can do for you.
    Meth is not for everyone. Symptoms may include paranoia, 
hallucinations, loss of senses, skin irritations, loss of brain 
cells, memory loss.
    (END VIDEO CLIP)
    Ms. Hooley. That was produced by the students at Newberg 
High School, and it is currently running on several television 
stations in Oregon, including Fox 12 in Portland.
    The Methamphetamine Awareness Project continues spreading 
around the state. Last year we helped secure a grant for 
Lincoln County to bring MAP to their schools. For a total of 
$80,000, four schools were able to participate in the program, 
the end result being 12 public service announcements and two 
short documentaries.
    Five of these broadcast-quality PSAs are now being shown on 
television stations throughout Oregon as well as having 
recently been sent to other states and Canada. This year the 
Office of Lincoln County Legal Counsel has secured another 
Federal grant to extend MAP to three more Lincoln County 
schools.
    Here are two of the videos produced by Lincoln County 
schools showing two different tactics that the students chose.
    The first, produced by students at Newport High School, 
features an interview with a former meth addict talking about 
the personal devastation brought about by the use of meth.
    And the final ad, produced by students participating at MAP 
at Toledo High School in Lincoln County, was featured in a 
recent meth story airing on ``ABC World News Tonight.''
    Do you want to show those two?
    (BEGIN VIDEO CLIP)
    FORMER METH ADDICT: When it comes to methamphetamines, once 
you start it, you think you are in charge. I guarantee you, you 
think you are in charge the whole time. And then all of a 
sudden, 1 day, you are lost, because before you know it, you 
are so addicted you cannot stop it.
    I hurt people that mean a lot to me. I have nightmares 
about it. All over a bag of chemicals. I will regret the day I 
touched the stuff.
    (END VIDEO CLIP)
    Ms. Hooley. Do you have the next one? There is one last 
one.
    (VIDEO CLIP)
    Ms. Hooley. The students that participated not only learned 
firsthand about the devastation of methamphetamine through 
research and creation of these advertisements, but they are 
also providing a service to the community by educating them as 
well.
    When they finished making these ads, they invited the whole 
community to come and see them. And these schools were all 
rural schools. And they had 400 and 500 people show up at night 
to watch these ads that the students made. So not only was it 
educating the students, but it was educating the community.
    They had an after-school program. They learned some social 
skills. They learned film-making skills. They were given an 
outlet to their creativity. And again, it kept them busy after 
school.
    But most importantly, the students were educating other 
students. They know best how to reach their classmates and what 
messages are going to be most effective in keeping them off 
drugs.
    The Methamphetamine Awareness Project is truly an 
innovative project that ought to be examined closely by Federal 
drug policy experts and, I think, expanded on a national level. 
It is not very expensive. Again, it is a great way for students 
to educate other students that they know best.
    And in fact, what I would love to see is this program go 
nationwide, and that these are the kinds of ads we use when we 
show the drug ads on television nationwide instead of those 
that are produced by professional companies. I think students 
know best how to keep other students off the drug.
    I am happy to answer any questions. Thank you.
    [The prepared statement of Ms. Hooley follows:]

Statement of Hon. Darlene Hooley, a Representative in Congress from the 
                            State of Oregon

    Thank you Mr. Chairman and Ranking Member Woolsey.
    In my three decades of public service, I do not think I have seen a 
problem as pervasive or as damaging as the meth epidemic that is 
sweeping our country. Meth is one of the fastest growing drug problems 
in the nation. Meth is cheap, easy to make, and gives addicts an 
intense, long-lasting high, but it destroys their brains, causes them 
to abuse and neglect their children, and leads to paranoid acts of 
violence.
    People fighting against drug abuse frequently talk about the 
concept of the three-legged stool of prevention, treatment, and 
enforcement. Just like a stool, our efforts to fight drug abuse will 
collapse if we try to stand on just one or two legs. All three legs of 
our anti-drug strategy must be strong if we are going to be successful.
    Another way to think about drug policy is to talk like an economist 
about supply and demand. We fight against drug supply through law 
enforcement efforts against drug dealers and by choking off the supply 
of precursor chemicals. We work to reduce demand through our prevention 
and treatment programs. And you have to reduce both supply and demand 
in order to make a dent in our meth epidemic.
    Both Congress and state governments throughout the country have 
been taking strong steps to address the supply of methamphetamine 
through precursor chemical controls and cracking down on the 
international meth trade. While we have effectively focused on 
enforcement and precursor controls, too often we neglect prevention and 
treatment. Our lack of investment in these areas leaves us standing on 
a stool with two weak legs that is teetering and verging on collapse.
    We know that both prevention and treatment can be very effective'' 
especially from a cost standpoint. If we can use prevention programs to 
keep people from using meth and other drugs in the first place, we will 
save the taxpayers money. Even more importantly, we can help prevent 
the wreckage that comes when meth destroys an addict and harms the 
community and people around him.
    I am here today to talk about one innovative drug prevention 
program that has proven highly successful in Oregon. The 
Methamphetamine Awareness Project, or MAP, originally developed by the 
Oregon Partnership, our statewide prevention coalition, combines 
substance abuse prevention theory with the creative energy and 
abilities of young people to create prevention messages through film. 
Participating youth learn from and work with prevention and treatment 
specialists, law enforcement officials, their peers, and professional 
filmmakers to create a prevention intervention tool intended to reduce 
the potential of teen meth use and raise community awareness about the 
dangers of meth.
    The first MAP was during the 2002-2003 school year at Oregon's 
Sheridan High School. The Sheridan students produced a powerful 16-
minute documentary that is now shown in schools all around Oregon. The 
program was so successful in its first year that during the 2003-2004 
school year, Oregon Partnership moved to Newberg High School where the 
students produced two amazing television commercials that have been 
broadcast on television stations in Portland and have also garnered 
National attention from the Drug Enforcement Administration.
    One commercial depicts a doctor standing in his office, wearing a 
lab coat and holding out a bottle with a devil carrying a pitch-fork on 
the label. Techno music plays in the background as the doctor begins 
his pitch. ``Do you want to lose weight fast, and have all your teeth 
and hair fall out?'' he asks. ``If so, meth could be right for you.'' 
Another ad, that has been featured on the DEA's youth education web 
site, features a young man pouring a variety of chemicals into a 
blender, including kitty litter, brake fluid, gasoline and cold 
medicine: all methamphetamine precursors.
    The Methamphetamine Awareness Project continues spreading through 
the state. In the 2004-2005 school year, I helped secure a grant for 
Lincoln County to bring MAP to their schools. For a total of $80,000, 
four schools were able to participate in the program, the end result 
being 12 PSA's and two short documentaries. Five of these broadcast 
quality PSA's are now being shown on television stations throughout 
Oregon, as well as having recently been sent to other states and 
Canada. One was even featured in a recent meth story airing on ABC 
World News Tonight. This year, the Office of Lincoln County Legal 
Counsel has secured another federal grant to extend MAP to three more 
Lincoln County schools.
    These ads include one depicting a father who is too busy cooking 
meth for himself to worry about food for his family as the police bust 
his home meth lab. One of the schools participating in MAP, chose to 
create interview-style public service announcements where they went out 
to the community and spoke with recovering meth addicts about their 
experiences. Another provides kids with a list of ``Better things to do 
than meth'' including watching halftime shows, going to a movie and 
going to dances. The ad ends with the tagline ``Meth is Death.''
    The project works on several different levels. The students 
participating in MAP not only learn first hand about the devastating 
effects of methamphetamine through the research and creation of these 
advertisements, but they are also providing a service to the community 
at large by educating them as well. Research has shown that 
interventions that provide opportunities, skills, and recognition are 
likely to promote positive social bonding and the adoption of healthy 
beliefs and clear standards of behavior. MAP participants are drawn 
into the program with the opportunity to acquire and utilize film 
skills in a context where they are reinforced by adults and peers. Not 
only are they learning about the dangers of methamphetamine and film 
skills, they are also learning to exercise their creativity and given 
an outlet that keeps them busy after school hours. But most 
importantly, it is kids educating other kids. They know best how to 
reach their classmates and what messages are going to be most effective 
in keeping them off drugs.
    RMC Research Corporation, based out of Portland, Oregon, is 
conducting a three-year study to measure the effectiveness of MAP's 
prevention strategy. Although they are still in the progress of 
evaluating the results of the program, the initial study results 
indicate that MAP has been successful in decreasing the likelihood of 
youth substance use. MAP accomplishes this through four main tactics. 
It increases knowledge of the negative effects of meth and other 
illegal drugs among program participants. It increases and/or maintains 
anti-drug attitudes. It increases adult and social bonding and finally, 
it increases overall protection and resiliency.
    Early study results score the program high in a variety of 
categories including participant satisfaction, knowledge gain and skill 
development. Participants in MAP learned facts and risks related not 
only to meth, but also ecstasy, other club drugs and illegal drugs in 
general that supported their desire not to use. Not only was the 
program effective in educating the students about the dangers of meth 
use, but program participants also reported decreased risk related to 
tobacco and marijuana use following participation in MAP.
    Although quantitative benefits from MAP are still being determined 
through the associated research efforts, the communities involved in 
this unique initiative have reported that the project has been 
beneficial to their communities, both students and adults. Because of 
the attention that MAP has received in the media, it has increased 
knowledge about meth and reinforced anti-meth attitudes throughout the 
entire state and the videos that the students have created have been 
shown at anti-meth forums and events across all of Oregon. The 
Methamphetamine Awareness Project is truly an innovative project that 
ought to be examined closely by federal drug policy experts and 
expanded on the national level.
                                 ______
                                 
    Mr. Osborne. Well, thank you very much. Excellent. And 
certainly the PSAs are, I think, very effective. At least they 
affect me.
    I guess I just have a couple quick questions.
    One is, as you mentioned, this has hit a few counties, 
probably not even in the whole state of Oregon.
    Ms. Hooley. No, no, a few schools.
    Mr. Osborne. A few schools. And you mentioned that you 
would like to see this comprehensive, nationwide if possible. I 
certainly agree. Do you have any thoughts as to--you know, 
obviously, funding is a problem. And I think one of the things 
we are doing today is simply try to build awareness. Maybe 
people in Congress will pay attention.
    But sometimes this whole thing seems to be flying a little 
bit under the radar screen, and I wonder what your perception 
is as to what the most effective way would be to get this 
translated to a national level, a national scope.
    Ms. Hooley. Well, I should have the numbers with me, and I 
will get those to the committee. We spend a fair amount of 
money, and I know a lot of it--the time and the energy is 
donated--not energy, but time is donated by professional ad 
companies.
    But what we spend on advertising every year on drug ads--I 
think we could use some of that money or most of that money and 
put it into our schools and let our students make those ads.
    We have incredibly talented students. And if they have a 
little bit of help from some film-makers or some other people 
that have some expertise, I think this could spread nationwide. 
And then show these instead of the professional ads we have 
done.
    And again, I think these ads have more of an impact than 
some of the ads that are done professionally, again, because 
they are done by students and they know what impacts other 
students better than anybody else.
    So I think there are some ways--and we have some proposals 
on where to get the money, and I would be happy to bring it to 
you, and I do not have it with me today.
    Mr. Osborne. I think those comments are certainly well 
taken, very appropriate. Have you given any thought to age 
appropriateness? In other words, this is primarily aimed at the 
high school student.
    Ms. Hooley. We think it is appropriate to use in junior 
high. I mean, again, it has not been used in that many schools 
in Oregon. I think it is gone in about seven schools. And one 
of the schools was a junior high. And what they came up with 
was absolutely terrific.
    And in the process of doing these PSAs, they have also done 
documentaries. And some of them are 15 minutes. One is 16 
minutes. One is 10 minutes. But they have done some 
documentaries as well, and they--I mean, I think they have done 
a terrific job.
    But I think it is very age appropriate for junior high, 
which is, I mean, the age that kids are experimenting. They 
want to be an adult 1 minute. They want to be a kid the next 
minute. Lots of young women are using this as a way of losing 
weight. And I think junior high is as appropriate as high 
school.
    Mr. Osborne. The reason I mention that is that there are 
some who are even suggesting as low as 3rd or 4th grade, at 
least with some materials, because that is when people start 
shaping their thoughts about substance abuse.
    And of course, underage drinking on average, I think, 
starts at about 12.7 years of age.
    Ms. Hooley. Right.
    Mr. Osborne. And of course, lots of people when they are 
high on something else will take meth when somebody says, well, 
here, try this, you know, this will make you really feel good. 
They do not even know what it is.
    Ms. Hooley. Well, I think a documentary that students make 
can also be used as one of the many tools they would use in 
grade school, in 4th and 5th and 6th grades as well. So I mean, 
I think that could be part of a curriculum.
    Again, as you said, younger and younger students are using 
drugs and alcohol. And I mean, I think the numbers are pretty--
as far as how young kids are starting to use some kind of 
substance abuse.
    Mr. Osborne. All right. Well, I do not want to take more 
time at this point. I just want to thank you for your testimony 
and thank you for coming.
    And at this point--oh, I see our other witness, Mr. Souder, 
is here. So we probably should at this point welcome him and 
allow him to testify, and then we will turn the questioning 
over to other members of the panel.
    Mark Souder has been very active in methamphetamine 
legislation. He has been a representative of the 3rd District 
of Indiana since 1994 and chairman of the Government Reform 
Subcommittee on Criminal Justice, Drug Policy and Human 
Resources.
    So his subcommittee has done a great deal of work and has 
jurisdiction over domestic and international antidrug efforts 
for the Federal Government--is authorizing the Subcommittee for 
the Office of National Drug Control Policy.
    He also serves on this committee as well as the House 
Committee on Homeland Security. And I know Mark just had a 
series of votes.
    And we are pleased to have you here, Mark, and so why don't 
you go ahead with your testimony at this time?

  STATEMENT OF HON. MARK SOUDER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Souder. Thanks. And knowing my full testimony will be 
in the record, let me just summarize a couple of points.
    I apologize; we were voting in Homeland Security.
    And I want to thank Congresswoman Hooley and, as I referred 
to you yesterday, Coach Congressman Governor Osborne, for his 
leadership on this issue. It looks like either today or 
tomorrow we are going to have the first major meth legislation 
in the history of Congress on the House floor. Congresswoman 
Hooley has some elements of this in the international area.
    The pictures that you have steadily brought to the House 
floor have helped develop attention among members of the 
devastation of this disease. And we both have a war on drugs 
and a health crisis on drugs. They are both things, and meth is 
the latest iteration of this.
    There is a couple of different points I think are most 
relevant to the Education and Workforce Committee. I have held 
11 hearings around the country on meth and seen many variations 
of rural and urban. Clearly, this committee has jurisdiction 
over Safe and Drug-Free Schools which will be coming up as we 
reauthorize the No Child Left Behind, the elementary education 
act, that will be coming up. This committee also has important 
jurisdiction over the workforce.
    And let me immediately address more precisely what is in 
front of this committee and then more broadly some prevention 
efforts. I believe that the legislation we are about to pass 
will start to get control some of the international market.
    That combined with what we are doing in Homeland Security 
and Judiciary will address some of the border questions. We 
have some meth kingpin and over-the-counter legislation. That 
buys us time.
    But ultimately, when we do law enforcement and 
international enforcement, if it is not coupled with prevention 
and treatment--can only stabilize or slightly slow the growth. 
It does not accomplish the purpose.
    We also have to get the prevention message out and then 
treat the wounded so they do not keep coming back. In some 
cases in labs--we had one in Indiana just a couple weeks ago--
the prosecutor told me he was up for his third mom and pop lab, 
and he still had not been in jail for the first one because it 
takes so long to get to prosecution. Others, the second they 
are out of their treatment program, they are back in. So we 
need much more research and treatment.
    But as we look at prevention, the Safe and Drug-Free 
Schools program presents an interesting challenge to us, 
because on the one hand, we have tried to do so much with this 
program that it has not been targeted enough. And I think we 
need to look at that as we do reauthorization.
    A second thing is as much of the meth problem is located in 
rural areas, and in our allocation formula by school, often a 
rural school--sometimes they get $300, sometimes $700. It is 
not really enough to put together a coordinated campaign.
    And we need to look at how to do some pooling in the rural 
areas, because the way Safe and Drug-Free Schools is 
structured, it would be very hard to get dollars into many of 
the areas where the meth has hardest hit.
    I think a third aspect of Safe and Drug-Free Schools, which 
is a different type of challenge, is that when we are doing 
Safe and Drug-Free Schools, meth is not predominantly a youth 
drug.
    Now, we want to do the education and the prevention so they 
do not get into it later, but part of the reason I mentioned 
the importance of workforce here is I think the frontier that 
we need to tackle next year, in addition to some of the EPA 
questions and some things that--clearly, ONDCP needs a meth 
clearinghouse.
    We need to see what has worked in Montana, what has worked 
down in Kentucky--two success programs we have. And right now, 
when you talk to local groups, they do not even know where to 
go to get this. Association of Counties does some of it. 
Individual congressmen do some of it. Sometimes it is a 
community coalitions group that does it.
    We clearly need a clearinghouse. And I think ONDCP can do 
that without legislation. But if need be, we do legislation.
    But where we need to really look at this is this drug seems 
to be concentrated most heavily in the workplace. And in this 
committee we need to look at this. Small Business Committee--we 
need to look at this--because often it seems to be a 
combination of--in some cities, like in Minneapolis, we heard 
that the bulk of the people who were in meth treatment were 
women. An extraordinarily high percentage were using it for 
weight loss.
    Other areas, it is just a standard, ``I am out on drugs and 
this one got me higher.'' And then one of the things that we 
have seen in my home state is it is used like an amphetamine, 
and many truck drivers use it. They can stay awake longer, at 
least initially, till they get devastated and lose their job. 
And people use it like that.
    Well, a standard national ad campaign or a standard Safe 
and Drug-Free Schools program is not really going to work in 
the workplace. We need to get where they are. So we have been 
asking Partnership for Drug-Free America for--are we going to 
have posters we can put at the workplace?
    Are we going to have things that we can put in with the 
check when they get their payments? Are there things that we 
can target at the workplace? Do we look at drug testing in the 
workplace? And how can we--a number of years ago we did this 
with the small business. So we need to be creative.
    One last point: The Partnership for Drug-Free America has 
offered their new anti-meth ads to any Member of Congress who 
will do this. The T.V. ads are done. They are very near 
completion on the radio ads, and they are working on billboard 
and newspaper ads that should be available by the 1st of the 
year.
    I encourage every Member of Congress, rather than just talk 
about this, if you have meth in your district, to lead the 
prevention effort. Get these materials. Go to your T.V., go to 
your other media outlets in the district, and work with the 
high schools, too. They have little T.V. stations, radio 
stations. They can put posters up.
    And I think if we work together, as we have been here in 
Congress, we can really turn the tide on this drug, because it 
is the easiest one to sell that we have ever had in modern 
times--to say this is what it does to your body, this is what 
it does to you.
    Thank you for letting me testify.
    [The prepared statement of Mr. Souder follows:]

 Statement of Hon. Mark Souder, a Representative in Congress from the 
                            State of Indiana

    Chairman Castle, Ranking Member Woolsey, and my colleagues on the 
Subcommittee, thank you very much for inviting me to testify on this 
very important subject. I'd like to commend the Subcommittee for 
holding this hearing, which addresses one of the critical components of 
our effort to stop the methamphetamine epidemic: meth use prevention 
and education.
    As chairman of the Government Reform Subcommittee on Criminal 
Justice, Drug Policy and Human Resources, I've held eleven hearings on 
the meth epidemic, including seven field hearings. In places as diverse 
as Indiana, Arkansas, Hawaii, Minnesota, Ohio, and Oregon, I have heard 
gripping testimony about how this drug has devastated lives and 
families. But I have also learned about the many positive ways that 
communities have fought back, targeting the meth cooks and dealers, 
trying to get addicts into treatment, and working to prevent abuse, by 
educating young people about the risks of meth.
    ``Prevention--stopping use before it starts,'' in the words of 
President Bush's National Drug Strategy Report--is a vital component of 
any effective drug control strategy, and that is particularly the case 
for meth. In many respects, it is the most important component, since 
it is the demand for drugs that attracts the supply. Moreover, as with 
anything else, an ounce of effective prevention really is worth a pound 
of cure. Once a person is addicted, treatment is very difficult--
especially for meth. While many people correctly state that we will 
never simply arrest our way out of the meth problem, neither will we 
simply treat our way out of it, either. If we don't cut back on the 
number of addicts, we will never be able to provide enough effective 
treatment for all of them.
    Prevention must therefore be central to our anti-meth strategy. 
Even as the House and Senate consider legislation to reduce the 
diversion of meth precursor chemicals like pseudoephedrine, we must 
also consider how best to prevent the ``diversion'' of young lives to 
the destructive path of meth abuse.
    The federal government's major prevention programs include the Safe 
and Drug-Free Schools (SDFS) program at the Department of Education, 
which includes formula grants to the states, and ``national programs''; 
the National Youth Anti-Drug Media Campaign (the ``Media Campaign'') at 
the Office of National Drug Control Policy (ONDCP), which helps fund a 
national advertising campaign to educate young people and parents about 
the dangers of drug abuse; the Drug-Free Communities (DFC) program at 
ONDCP, which provides small grants to local ``coalitions'' of 
organizations and individuals who come together for drug use prevention 
efforts in their communities; and prevention programs funded through 
grants provided by the Center for Substance Abuse Prevention (CSAP), 
part of the Substance and Mental Health Services Administration 
(SAMHSA) at the Department of Health and Human Services (HHS). The 
federal government also funds significant research and development of 
drug prevention methods, through CSAP, and the Counterdrug Technology 
Assessment Center (CTAC) at ONDCP, and the National Institute on Drug 
Abuse (NIDA).
    At a hearing last April, I expressed my concerns about the 
Administration's budget proposal for drug use prevention programs in 
general. By proposing to eliminate the SDFS state grants, flat-funding 
the Media Campaign and DFC programs, and reducing SAMHSA's prevention 
funds, the Administration would have reduced prevention funding to only 
13% of the fiscal year ``06 drug control budget. Although the 
Administration has valid concerns about how effective our prevention 
programs have been in reducing drug use, I believe the appropriate 
response is to reform the existing programs by making them more 
accountable, or to propose new and better programs. The 
Administration's deep cuts, unaccompanied by any new proposals, would 
have suggested a significant abandonment of prevention.
    I think that Congress and the Administration need to come up with a 
comprehensive strategy for drug use prevention, starting with meth use 
prevention. I am pleased that ONDCP has finally begun producing ads 
through the Media Campaign targeting meth use; we need more of them, 
and a commitment to ensure they are broadcast in the most affected 
areas of the country. Targeted ads against ``ecstasy'' had a real 
impact in recent years in reducing youth abuse of that drug; targeted 
ads against meth hold similar promise.
    With respect to Safe and Drug-Free Schools, I firmly believe that 
program can play a vital role in meth prevention. We need, however, 
innovative thinking and new ideas about how to communicate anti-drug 
messages in the schools. Among other things, I think that at least some 
part of those funds should be available to help schools implement 
targeted, non-punitive drug testing programs. Such programs would help 
vulnerable kids stay off drugs, and kids already heading down the road 
of abuse to get into treatment. They are also an excellent tool for 
measuring the success of other drug use prevention programs, as they 
show whether the true ``bottom line''--reducing drug use--has been 
achieved.
    Thank you again, Chairman Castle and Ranking Member Woolsey, for 
your leadership and commitment to improving meth prevention programs. I 
hope to work with you, and all of my committee colleagues, to move 
forward a comprehensive meth prevention plan.
                                 ______
                                 
    Mr. Osborne. Thank you, Mr. Souder.
    And one thing that we have done in my district--my staff 
and I are in every middle school, every high school, with a 
PowerPoint showing some of the more graphic stuff, and we feel 
it has made a difference.
    I have already had a series of questions, and so at this 
point I would like to turn to Mr. Grijalva. Oh, he is gone.
    Mr. Davis?
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and let me begin by commending Mr. Souder and Representative 
Hooley for the leadership that they have demonstrated.
    Mark has been relentless as chairman of the drug committee. 
It really should be called the antidrug committee, because I 
have seen him all over the country trying to help educate, 
bring awareness, and really trying to get a handle on what I 
consider to be one of the most serious problems facing America, 
period.
    And of course, it has worldwide implications because you 
see it when you travel abroad. And it is one of the problems 
that we have not been able to seriously get a handle on.
    And I am always perplexed when we talk about costs and 
finding the resources to do education and prevention, because 
we can obviously see it is not a matter of spending. It is a 
matter of investing, and that if we do not invest on the front 
end, then we are going to spend on the back end, but think of 
all the misery that has occurred in between that could have 
been prevented.
    And I just do not understand why we seem to have so much 
difficulty understanding that, or why we have so little faith 
in education. Smoking is one of the best examples that one can 
think of. Twenty years ago, there would have been smoke all 
over this room. Ten years ago, we would have separated the 
smokers, and they would have been in the back on one side.
    And now we have finally come around to realize the danger 
of smoking as a result of intense education campaigns. It did 
not happen by itself. I used to smoke cigarettes when I was a 
kid, and I smoked them because I did not know any better.
    My mother used to tell us that if you know better, I 
believe that you would do better. And I think if our country 
knew better, if kids growing up knew better, if people in the 
workplace knew what drug use will do for and to them, they 
would do better.
    And so my question is, Mark and Darlene, how do we convince 
what seems to be an unbelieving public that it really makes 
sense to invest? If there is no investment, there is no return. 
We understand that. We live in a capitalistic society. We 
always have.
    And if we do not invest in programs like the MAP program, 
then we have got to invest in the hospitals. We have got to 
invest in the morgues. We have got to invest in trying to cure 
some of the poverty.
    But how do we convince an unbelieving public that it makes 
sense to invest in prevention and treatment?
    Ms. Hooley. First of all, we need you going around the 
country giving that message everywhere we go. That would help.
    And as you know, most education programs--it takes a while 
to get--first of all, to convince people in this building that 
this is an important program that we have to invest in.
    The other day I was talking to a couple of addicts, former 
addicts, and some judges, and they have a very successful court 
program. When the judge has the carrot or the hammer, whether 
the person goes to jail or they go to a treatment program, the 
cost to put them in jail is $25,000 a year. The cost to treat 
them for a year is $2,400.
    Now, I have been trying to figure out why, if we save that 
jail time, we cannot take that--and by the way, in this 
program, because they do not have any money to run the program, 
the addict has to pay for it themselves. And how many addicts 
can pay for it themselves? And sometimes they have parents or 
family members that will help do this.
    But why can't we take some of that saved money from that 
jail time to pay for the treatment program. But I mean, again, 
it is all of us coming together and saying this is important to 
invest in. This destroys families. In my state, we have had 
increase in number of foster homes needed because of children 
that are in meth homes.
    It is costing all of us a ton of money. It is always much 
easier or we always save money if we invest. And I think it 
takes the will of all of us that we understand this issue is a 
problem, and it is going to take our will to find that money to 
invest in the prevention programs.
    Mr. Souder. If I can make a couple comments on this, I 
think that there are several things. Some are real and some are 
perceived. One is that the impact of education is delayed. And 
as legislators, we tend to want to address the problem in front 
of us, get immediate thing, and then move on--particularly 
those of us who run every 2 years--want to fix the problem, and 
we do not want to say it is still continuing.
    And so when you have a prevention program, it is a delayed 
impact, whereas when you are dealing with a crime or somebody 
who is violent or making a drug lab, it is immediate.
    I think a second thing is--and this is a criticism of some 
of the prevention movement--that the accountability 
historically has been less on prevention than it has been in 
other types of categories. And because it is more vague, and 
you already have this delayed effect, it becomes more difficult 
when there is a budget thing in front of you to take it.
    And we need to make sure that our prevention programs are 
actually targeted with results that are measurable. To the 
degree that we do, we will be more successful and make sure we 
are hitting the target.
    But I think all that said--also, one other thing that makes 
a problem here is when we look at Federal investment, the fact 
is that the costs of not investing in prevention are split. The 
state picks up some, the county picks up some, the schools pick 
up some, the individuals pick up some, the families pick up 
some.
    And therefore when you are looking at your limited budget, 
unless we can get the state, local, federal, private working 
together for a combined effort, then no single group has the 
incentive to do the prevention.
    But let me illustrate why I believe in certain things it 
becomes absolutely appalling if you do not get into prevention. 
And let's just talk about what happened with crack and now I 
think is happening with meth.
    In my home town, we got hit with crack and most of it was 
coming in from Detroit, not Chicago, because crack hit Chicago 
later. But because it was not there yet, they were not trying 
to prevent it. In meth what we see--and we have heard this myth 
that it does not hit in urban areas and it does not go into the 
black population.
    Yet in Minneapolis, we have seen it now in Omaha, we have 
seen it in Portland--that when certain groups, distribution 
groups, see that they can cut out the Colombians and make more 
money on crystal meth, hey, they are right to crystal meth.
    So in Chicago, we ought to be looking at aggressive 
prevention before it hits, not trying to clean up the mess 
afterwards. And so prevention is much harder once it has 
grabbed than when you can sell it in advance.
    So I think if we get more sophisticated prevention methods, 
organize it better, and coordinate, we can overcome some of the 
past resistance.
    Ms. Hooley. Can I just add one other thing? And you said 
it, because we are elected every 2 years. I think it is being 
persistent and consistent in sustaining that for a number of 
years. You cannot go on from the issue of the day to next week 
another issue and next year another issue.
    You have to really stick with this issue.
    Mr. Osborne. Thank you very much.
    Ms. Musgrave?
    Mrs. Musgrave. Thank you, Mr. Chairman.
    This meth situation just breaks my heart. I mean, in rural 
areas where you can have labs out, you know, where it is 
isolated, the toll on our children is absolutely horrific.
    And I was just absolutely incredulous the other day. A 
member of our city council in the rural community--I live a 
little bit south of it--was arrested for cooking meth in his 
home. And you know, I am not saying he is guilty, but that is 
what he was arrested for. And to me, that spoke to the 
addiction that someone even after they have moved on still 
cannot kick.
    And I was at an apartment complex recently and I saw this 
young woman with a toddler on her hip, and she was there, and 
she was talking to me, and her teeth were just rotten. She is 
this beautiful, young woman. It was meth mouth that I was 
looking at. And here she was a mom. And we have to do 
something.
    And, Mr. Davis, your remarks about spending on the front 
end or the back end and the misery in between--I mean, the 
misery just breaks your heart. And in my district, I have a 
vast district, and we have 75 percent of the population living 
along the front range, and then we have 25 percent out in the 
rural area. And Mr. Osborne knows very well what those rural 
areas are like.
    So we are seeing the devastation of meth. I have a son-in-
law that is a police officer, and he is just overcome with what 
this is doing to rural America.
    And then when you get a little closer to the front range, 
in another community that I represent, we have had a number of 
deaths, gang related deaths, and it is because of 
methamphetamine. And you know, I am all for peers educating 
peers, these kids. But we have got to get a hold of this 
problem and do something.
    And I did not even know, Mark, that we could do ads. I did 
not even know that. And you can bet that I will be 
participating in any way possible. And when these--I think we 
need ads that let these young people know that this just kills 
you from the inside out, and if you want to lose weight and 
look great, you know, you better think of the teeth, you know, 
that you are not going to have, because they are going to be 
just melting in your mouth.
    So I applaud you on your efforts. I really do not have a 
question other than, you know, get me on board and let me do 
what I can do, because it is devastating. And I think in these 
small towns that the chairman and I would be familiar with, 
because we see people in the grocery store, and we talk to a 
mom whose daughter has died because of her meth problem, we 
have that level of intimacy where we see it.
    It is not in a big town. It is not lost. You know, it is 
your friends and neighbors, the teachers you know, and the law 
enforcement people that are affected by this, and the effect is 
just horrific.
    Thank you, Mr. Chairman.
    Mr. Souder. May I comment briefly? The partnership is going 
to show two of the ads in the next panel. And they are 
effective in different ways, one showing the impact on family, 
one is more chemicals.
    But sometimes we as politicians--I mean, I have never even 
smoked a cigarette. I am not a really good test case here. And 
so I am kind of naive as I approach this type of issue and 
communicating it, and so it has been hard for me to understand 
why somebody gets on meth.
    And we really have to pound the pictures here like 
Congressman Osborne has done and the immediate impacts, because 
we--one of the people at Oregon, which was kind of appalling, 
and please, everybody, cover your ears if you are not ready for 
this, but one of our witnesses said it was 12 times more--the 
impact was 12 times greater than the best orgasm he has ever 
had, that people can drive three nights without sleeping, that 
they can up their performance at work, because the question is 
what gets them into this.
    Given that we have these warnings, why do they go to meth? 
And we have to understand why they do, because we see doctors, 
we see lawyers, we see people who say this is not logical that 
this has happened. Now, what we need to communicate is that it 
does not sustain itself. That might work once or twice, but you 
get addicted to this stuff, you look like that lady, or you 
die, or you cannot perform at all.
    When you actually talk to meth addicts, they may get some 
short-term performance and short-term excitement, but this, 
unlike any other drug, has a ``boom'', like that, on you, and 
if we cannot communicate that clearly, then we are lacking 
communication skills.
    That is why I say this is a drug where we can show 
clearly--and the chemicals going into this--smoking has rat 
poison. This stuff has about every kind of poison dumped into 
your body. If we cannot communicate this, and if we cannot 
spend some dollars communicating this, it is not clear what we 
can communicate.
    Mr. Osborne. Thank you very much for your comments.
    And I would just add one comment here. One thing that is 
really difficult about CBO scoring is it never takes into 
account savings. And therein lies the rub here in Congress, 
because we talk about the importance of investment. We talk 
about the importance of prevention.
    And so you may spend $3 million to save $1 billion, but it 
does not score. You know, it just scores $3 million spent. And 
that is the thing that is so hard to get across. And it really 
ties your hands.
    I am sorry, Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman, and I thank you for 
calling this hearing.
    I thank our colleagues, friends and colleagues, for coming 
to better inform us on this very important, critical issue of 
drug prevention.
    I was looking at the testimony and wanted to ask 
Representative Hooley--it seems that you testified about our 
lack of investment in the antidrug prevention and education.
    Can you expand on that a little bit more for us and talk 
about how we need to improve that area?
    Ms. Hooley. This is an issue actually I have been working 
on for 17 years. And when I first started, it was all about the 
expenses of how do you clean up a meth lab, so it was all about 
law enforcement and how you clean up--very expensive process, 
and trying to get money into our communities for law 
enforcement for cleanup efforts.
    Again, because it is so hard to show savings with 
prevention, as Mr. Souder's pointed out, it is split so many 
ways. I mean, and you have to have a prevention program that 
comprises more than just one thing. I mean, it has to be--but 
all of us learn differently, and so we need to do a variety of 
prevention programs. And a big portion of that is education.
    This Congress has to take a look at what has been done in 
communities, what has seemed to work--for example, we know that 
if we get the younger students that we are usually better off. 
But a lot of times, we do not trace that from grade school 
through high school through college and on.
    We take a program that we think has worked--for example, 
Just Say No. Well, most of the literature I have read--maybe it 
has worked, and maybe it has not, but most of the literature I 
have read, you know, has seemed to say that it has not been 
terribly successful. But maybe you can change that or take a 
little different tack.
    One of the reasons I brought these T.V. ads in--that may 
not work for everybody, but it is a way of students doing 
hands-on work, learning about it on their own, making ads that 
they think are effective for other students. And I think that 
is one of many programs that we can do.
    But let's try all of them, and let's see which ones work. 
And you know, maybe we will find a couple of silver bullets. I 
doubt it, but maybe we will find a couple of ones that are just 
the thing. But let's put some real effort and some real time 
and some real money into prevention.
    We are trying to deal with the supply problem in our bill. 
Let's try to deal with the demand problem as well.
    Mr. Hinojosa. Congresswoman Hooley, I am impressed by the 
way you describe the MAP program in your district, and also I 
am impressed by your commitment and passion for this prevention 
program.
    Tell us a little bit about--when you talk with adults and 
students who are part of this program, what do they tell you 
about why the program works so well and what could be done to 
improve it?
    Ms. Hooley. When I talk to the students, first of all, they 
are very excited about doing this. They feel like--I mean, 
first of all, they have had to do the research. They have had 
to look at pictures like this. They have gone out and talked to 
addicts. They have talked to people that are in the treatment 
programs. They have talked to law enforcement.
    They have spent a lot of time. Some of these PSAs have 
taken them a whole year to do. So they have spent a lot of time 
learning about not only methamphetamines but all drugs. And 
then they have--it has also given them something to do after 
school, and we know after-school programs work very well at 
keeping a lot of kids out of trouble.
    And then they are trying to do ads that they think will 
have an impact on their fellow students. And they are learning 
a new skill. So it is all of these things rolled into one. Is 
this the end-all? You know, I do not think so. But does it 
work? It seems to work.
    We are looking at doing a study and evaluating the impact 
and the effectiveness of this. We have just started. It has 
only been in progress for about a year. This has only been a 3-
year program. It has only been done in, in do not know, six or 
seven schools.
    But it works. And let's take things like that that we know 
work and expand that. If there are other programs around the 
country, and I am sure there are, let's take those and expand 
those. And let's see what really makes an impact.
    And let's do follow up, not only the next year and the next 
year, but several years out and see what has happened and if we 
have actually made, you know, some progress in preventing 
students from getting on drugs.
    One of the things these ads have done and the documentaries 
have done is not only just for methamphetamines, but it really 
works for all drugs. I mean, they have a much greater awareness 
of the dangers of drugs.
    Mr. Hinojosa. Thank you very much.
    Mr. Chairman, my time has run out. I wish I could have 
asked the question of Congressman Souder.
    Mr. Souder. May I make a brief comment on that?
    Mr. Osborne. Yes, why don't you go ahead, Mark?
    Mr. Souder. A direct challenge of our committee when we do 
the reauthorization in elementary education--this committee 
does Safe and Drug-Free Schools. And we, in my opinion, in 
working on that--I have tried multiple amendments the last time 
through.
    In reaching many allowable use, nice goals, what we have 
done is taken the best antidrug prevention program in the 
United States and had it so frittered down that we have seen a 
number of studies now showing that this money is not working.
    That has resulted in multiple attempts by the 
administration to zero out this program. And I have been 
fighting to keep it in. They also try to keep only the national 
part, because when we break it up by school, often what results 
is one speaker comes in.
    And what we need to be looking at--which is fine. It is 
better than nothing. But it is not an effective use of the 
program. And we need in our committee here on education to be 
looking at what can we do to give some more direction. And I 
believe part of it is how to leverage money.
    And I believe that many schools now have their own little 
T.V. and radio areas inside the school. They also have posters 
and announcements. They also can work--often the local 
broadcasters love to have kids come forth with things they can 
use as PSAs in the local community.
    And we need to be looking internally, because we do the 
bill in this committee of how can we encourage things and, if 
necessary, market not exactly what to do, but that this should 
be part of the component of leveraging the dollars in Safe and 
Drug-Free Schools in getting the kids involved in addressing 
kids' issues.
    Mr. Hinojosa. Mr. Souder, do you believe that this part of 
the education program should be a part of the essential 
elements of learning in K-12 programs?
    Mr. Souder. I believe this is an interesting debate that 
has revolved around character education for many years. Should 
character education be taught as a separate program, or should 
it be integrated?
    And my position has always been both, that there ought to 
be some things targeted directly at drugs, but it ought to be 
integrated in to health classes. It ought to be integrated in 
to phys-ed classes and physical education classes because of 
what it does to your body, as we see what is happening with 
steroids in the United States.
    It is just like character education. It ought to be 
everywhere, but also focused.
    Mr. Hinojosa. Thank you.
    I yield back.
    Mr. Osborne. Well, thank you, and I would like to thank the 
members of the panel and--sure, all right.
    Mr. Davis?
    Mr. Davis of Illinois. I just wanted to ask you this one 
question. I do not know anybody who have spent more time, 
energy, effort on this than you have. Have you run into any 
successful--and it is hard to measure success over short 
periods of time--but good prevention programs targeted 
specifically for the workplace?
    Mr. Souder. Not as much, and there is not as much research 
on workplace. I am sure they exist.
    One of my frustrations is we do not really have a good 
clearinghouse, and it is one of the things I think ONDCP ought 
to be doing, is serving as a clearinghouse, so when somebody 
says do I have a workplace program, do I have a school program, 
do I have a community program, they can go there and look--here 
is meth, here is cocaine, here is general--and that we have 
this clearinghouse type of thing.
    There have been some scattered successes for periods of 
time. For example, drug testing usually works at the workplace 
to clear your place out, but it does not help the individual. 
And very few companies want to invest in the treatment that 
goes with the drug testing, unless, of course, there is low 
unemployment and then they have an incentive to try to keep 
their employees there.
    Generally speaking, it depends on how you define your goal. 
Is your goal to eliminate drugs from the workplace? Is your 
goal to help the individual so you do not just kick them over 
to another place that does not drug test?
    But my feeling is that there has been very little--and I 
was chairman of the Small Business Empowerment Subcommittee, we 
did the first drug-free workplace bill in Congress about 10 
years or 8 years ago, something like that. And it was a start 
of how you do drug testing that management needed to be 
included, not just labor.
    It needed to make sure that you had an accurate test, and 
that you included treatment. Otherwise you were losing your 
employees and not helping them. You were just shifting in 
between businesses. That was a pilot program, never went very 
far, and did not focus, really, on the prevention side. It was 
more preventing once you found somebody.
    My opinion is probably there is a little bit, but both in 
that subcommittee and since then I have seen very little 
related to workplace. That is not to say that it is not there, 
but I have not seen much.
    Ms. Hooley. Representative Davis, let me--in one of my 
communities, Salem, Oregon, there is a program that I will--I 
do not know enough details about it. I will send you the 
information.
    That is a community that has a program that the whole 
community is working on, Not in My Backyard, and it not only 
deals with trying to stop the demand and the treatment 
programs, but the entire community, including the business 
community, is very, very involved. It is the best community 
effort I have seen to date.
    And again, it may happen in other communities, but I will 
send you that information.
    Mr. Souder. Yes, and Cincinnati has had a very successful 
community-wide--and in southeast Kentucky, but they have not--
they include the businesses in it.
    For example, in a program that is starting up in my 
district with the schools, they are not only doing some drug 
testing. They have brought in the business community to find 
jobs for kids that are willing to stay clean, who are in high-
risk populations and do not have the ability to get a job.
    There are combined efforts, but I cannot think of one, and 
we ought to look inside some of these programs, how they 
implement it specifically at the workplace.
    Mr. Osborne. Okay. Well, thank you so much for coming, both 
of you, and appreciate your work on this issue and your 
expertise.
    And we will call up the second panel at this time and get 
the appropriate identification. So please have a seat.
    Okay, at this time I will introduce the second panel.
    Mr. Robert Denniston is presenting for the Honorable Mary 
Ann Solberg. Mr. Denniston currently serves as the director of 
the National Youth Anti-Drug Media Campaign at the White House 
Office of National Drug Control Policy.
    Previously, he served as director of the U.S. Department of 
Health and Human Services' Secretary's Initiative on Youth 
Substance Abuse Prevention. Prior to that, Mr. Denniston held 
several positions in the prevention field, including director 
of the Division of Prevention Application and Education at the 
Center for Substance Abuse Prevention.
    In addition, I want to thank Mr. Denniston for stepping in 
for Deputy Director Solberg at the last moment.
    Someone who is from my district, the Honorable John 
Icenogle is a district judge and district court judge serving 
Buffalo County, Nebraska. Judge Icenogle has served as 
president of the Juvenile Justice Association and, since 1995, 
has headed the District Judges Education Committee.
    Judge Icenogle has a long-term interest in children's 
issues and is a member of the Nebraska Governor's Children's 
Task Force.
    So we are very pleased to have you here today as well.
    And Dr. Richard Spoth is the director of the Partnerships 
in Prevention Science Institute at Iowa State University, not 
too far away. And in addition to his current position, Dr. 
Spoth has a long history of involvement in substance abuse 
prevention including joining with his colleagues to spearhead 
the development of a number of other prevention and research-
related organizations, including the Institute for Social and 
Behavioral Research at Iowa State University.
    So welcome, Dr. Spoth. We are glad to have you here.
    And then the final member of our panel is Ms. Cristi Cain, 
and she serves as the state coordinator for the Kansas 
Methamphetamine Prevention Project in Topeka. Prior to her 
current position, Ms. Cain served in several prevention 
programs in the Topeka, Kansas region.
    In addition to her work experience, she has trained people 
from all over the country to educate and rehabilitate 
individuals with drug addictions.
    So we want to thank all of you witnesses for your time and 
your testimony, and also the members for their participation.
    And so at this point--I think Mr. Denniston and Mr. 
Icenogle has to leave before noon, so we will definitely try to 
get your testimony in, but we will hear from all of you.
    So, Mr. Denniston?

 STATEMENT OF ROBERT DENNISTON, DIRECTOR, NATIONAL YOUTH ANTI-
 DRUG MEDIA CAMPAIGN, OFFICE OF NATIONAL DRUG CONTROL POLICY, 
 EXECUTIVE OFFICE OF THE PRESIDENT, ON BEHALF OF HON. MARY ANN 
   SOLBERG, DEPUTY DIRECTOR, OFFICE OF NATIONAL DRUG CONTROL 
           POLICY, EXECUTIVE OFFICE OF THE PRESIDENT

    Mr. Denniston. Chairman Osborne and distinguished members 
of the committee, I am honored to appear before you today to 
discuss the key pillar of the president's national drug control 
strategy, stopping use before it starts, education and 
community action.
    As we know, methamphetamine use can be prevented by a 
combination of federal, state and local officials and actions 
and communities. And I am here today on behalf of Mary Ann 
Solberg, the deputy director of ONDCP, who unfortunately could 
not be here because of a family emergency.
    Deputy Director Solberg's written testimony discusses a 
number of programs and efforts to stop meth use through 
prevention and education. And I respectfully request that it be 
made part of the record.
    I serve as director of the ONDCP's National Youth Anti-Drug 
Media Campaign. As you all know, meth is incredibly dangerous 
because of its high potential for addiction, its devastating 
physical and psychological consequences and its harm to 
communities.
    We believe that reducing the demand for meth through 
prevention will result in less demand for the drug, and this 
will help drive down production, thereby putting less strain on 
law enforcement and treatment providers.
    Nationally we have worked to support prevention activities 
through proven initiatives that support state and local 
efforts. The youth campaign, student drug testing grants, and 
the drug-free community support program all push back against 
the negative influences of drugs and now, more than ever, 
against meth as well.
    Now, the National Youth Media Campaign leads our efforts to 
reduce youth drug use. It is a strategically integrated 
communications effort that delivers antidrug messages and 
skills to America's youth, to their parents, and to influential 
adults.
    The youth campaign and the Partnership for a Drug-Free 
America have partnered to develop new, hard-hitting antimeth 
ads for television, radio and print. These ads aim to build 
public understanding of the threat from the manufacture and use 
of meth and to alert citizens about what they can do to protect 
themselves and their communities.
    We released these ads this week, earlier this week, on 
Monday, in Springfield, Missouri. Several people were there, 
including Senator Talent and, of course, ONDCP Director John 
Walters.
    At this point, I would like to show you two of those new 
ads.
    (BEGIN VIDEO CLIP)
    GIRL: This is my [inaudible] when my dad and I cooked 
breakfast together. He always called me his honey. But then he 
started using the kitchen to make meth. One night, the police 
came in with white suits and gas masks. I was taken to the 
hospital and decontaminated. I haven't seen my dad since.
    (END VIDEO CLIP)
    Mr. Denniston. We should have another ad in the series.
    (BEGIN VIDEO CLIP)
    ANNOUNCER: The toxic fumes from this meth lab are seeping 
into Jamie's sinus cavity. Ammonia vapors invade her throat. 
Toxic gases fill her lungs. Jamie's body is deteriorating, and 
she doesn't even know it.
    MOTHER: Jamie? Dinner.
    ANNOUNCER: So, who has the drug problem now? Find out how 
meth affects you at drugfree.org/meth.
    (END VIDEO CLIP)
    Mr. Denniston. These are two of the five ads in the new 
campaign created, again, by the Partnership for a Drug-Free 
America for us and they were actually produced by the top-
flight ad agencies, Leo Burnett and J. Walter Thompson, so we 
are very pleased with these ads and are getting them out to 
communities across the country just as quickly as we can.
    We believe by working with Congress, states, local 
communities and the private and non-profit sectors we hope to 
show these antimeth ads in every community that suffers from 
the detrimental effects of methamphetamine.
    Now, turning to student drug testing, in addition to the 
media campaign, random student drug testing is an effective 
part of a community-based strategy to reduce the demand for 
illegal drugs including methamphetamine.
    The purpose of student drug testing is not to punish kids 
but, rather, to stop drug use before it starts or in its 
earliest stages. It serves as an effective deterrent to drug 
use. Since 2001, we have seen a 25 percent decrease in meth 
drug use. That is very good news.
    And that is part of a reduction of 17 percent in overall 
illicit drug use by teens the last 3 years. Everyone who has 
been involved in this whole effort to reduce teen drug use 
should really be commended. That is a dramatic drop, 17 percent 
in the last 3 years.
    Turning to drug-free communities, the drug-free communities 
program provides grants to communities that have formed 
antidrug coalitions that present a united community front in 
the fight against drug abuse. This program currently funds more 
than 700 coalitions that seek to form, sustain and evaluate 
effective efforts to prevent and fight the use of illicit 
drugs, particularly by youth.
    In conclusion, I am pleased to present to you today some of 
the Federal Government's prevention efforts to stop meth in our 
communities. Again, thank you, Mr. Chairman. I look forward to 
any questions the committee may have.
    [The prepared statement of Ms. Solberg follows:]

Statement of Hon. Mary Ann Solberg, Deputy Director, Office of National 
 Drug Control Policy, Executive Office of the President, Washington, DC

    Chairman Castle, Ranking Member Woolsey, and distinguished Members 
of the Subcommittee, I am honored to appear before you to discuss the 
President's National Drug Control Strategy and how the Administration 
is preventing methamphetamine use across our country.
    The President's National Drug Control Strategy aims to reduce use 
of all drugs in America by 25 percent within five years and recognizes 
methamphetamine as one of the primary drug threats to America. Within 
the Strategy are three priorities: 1) stopping drug use before it 
starts, 2) healing America's drug users, and 3) disrupting the market 
for illegal drugs.
    This balanced strategy is working. Nationally, we have made 
progress over the last three years against substance abuse. The 2004 
Monitoring the Future survey showed a 17 percent decline in youth drug 
use since 2001. This equates to 600,000 fewer young people using 
illegal drugs today than were using three years ago. The use of 
methamphetamine by teenagers has declined even further, with use down 
25 percent since 2001. Despite these decreases in use, methamphetamine 
is still too prevalent across the Nation. In 2004, 1.4 million 
Americans had used methamphetamine within the past year, and 318,000 of 
them had tried methamphetamine for the first time. Despite the decrease 
in teen methamphetamine use, 1.4 percent of twelfth graders in 2004 
still said they have used methamphetamine in the past month.
    Nationally, drug treatment admissions for methamphetamine/
amphetamine dependencies have been increasing. In 2002, nearly seven 
percent of treatment admissions nationwide were for methamphetamine/
amphetamine, up from just one percent in 1992. Similarly, emergency 
room visits related to methamphetamine/amphetamine use increased 54 
percent between 1995 and 2002.
Dangers of Methamphetamine
    Methamphetamine is an addictive, synthetic drug that is extremely 
dangerous both to take and to produce. The use and the manufacture of 
methamphetamine are twin problems that together are ravaging many 
communities across the Nation and each presents major challenges at the 
Federal, state, and local levels.
    Methamphetamine has a high potential for abuse and dependence. 
Methamphetamine abuse can have devastating physical and psychological 
consequences. The drug causes increased heart rate and blood pressure, 
and its use has been associated with serious and prolonged brain 
damage. Over time, many users become badly emaciated from suppressed 
appetite, and suffer rapid severe tooth decay, and, in the long run, 
suffer psychosis. Methamphetamine is easy to make and can be 
manufactured for as little as $50 in supplies, allowing users to 
manufacture and supply methamphetamine cheaply for their own needs. 
During the manufacturing process, methamphetamine cooks face exposure 
to toxic fumes, asphyxiation, and the possibility of serious injury or 
death due to fire or explosion. These dangers extend to those in close 
proximity who may not be involved in the process, such as children. 
Methamphetamine's damage spreads beyond the user and harms the lives of 
children who grow up around this dangerous drug both because of the 
chemical exposure as well as the neglect of parents who are high on 
meth. Across the nation, increasing numbers of children have been 
sickened by exposure to toxic chemicals used in methamphetamine 
production while others have been placed in foster care because parents 
or guardians who abuse methamphetamine are unable to care for them. 
Methamphetamine labs present environmental challenges, and clean up of 
the toxic sites is both dangerous and expensive.
    Reducing the demand for methamphetamine through prevention will 
result in less demand for the drug which will help drive down 
production, thereby putting less strain on the public safety officials 
and drug treatment providers who deal with methamphetamine's harmful 
effects.
    Prevention programs are varied and often creative, and the National 
Drug Control Strategy discusses an array of prevention programs--
including school and community-based programs such as Meth Watch, 
student drug testing programs, educational efforts and public service 
advertisements. Prevention programs may vary widely, but generally are 
associated with information, education, model behaviors, and early 
intervention activities. These programs focus on reducing risk factors 
and building protective factors and may be directed at any segment of 
the population. Several prevention activities or strategies may be used 
effectively in combination. Nationally, we have worked to support 
prevention activities through effective initiatives that support local 
efforts: the National Youth Anti-Drug Media Campaign, student drug 
testing grants, and the Drug Free Communities support program.
National Youth Anti-Drug Media Campaign
    ONDCP's National Youth Anti-Drug Media Campaign leads our efforts 
to reduce youth drug use. The Youth Campaign is an integrated effort 
that combines advertising with public communications outreach. It has 
developed a series of advertisements that change youth attitudes of 
drug use and coach parents in monitoring teen behavior and promoting 
early intervention against signs of early drug use. We are convinced 
that the Youth Campaign has been a major contributor to our success. 
This year's results from the Monitoring the Future (MTF) study 
conducted by the National Institute on Drug Abuse in the Department of 
Health and Human Services (DHHS), further strengthen the historic 
reductions observed in last year's results.
    Among all three grades surveyed by the MTF over the course of the 
Youth Campaign, youth report being to a ``great extent'' or ``very 
great extent'' less favorable toward drugs and less likely to use them 
in the future. Further, more than half of the increase in most of these 
outcomes among all three grades has occurred in the past three years. 
This is particularly striking among 10th graders, our primary target 
audience. With these results, the Youth Campaign will continue as 
ONDCP's primary drug prevention program, and I look forward to 
additional progress in the future.
    On November 2, ONDCP launched a new, positive, aspirational brand 
that resonates with the Media Campaign's core target audience of 14-16-
year-olds. The ``Above the Influence'' brand is the result of extensive 
qualitative and quantitative research ONDCP initiated with teens to 
ensure the Campaign is speaking with a message and voice relevant to 
today's youth. The new brand speaks directly to teens at a vulnerable 
age, when they start to test limits, defy their parents, become more 
independent, make their own choices, and assume greater responsibility 
for their actions. The ``Above the Influence'' brand empowers teens to 
recognize and live above peer pressure and negative influences. It 
squarely addresses the social context that leads to bad decisions, such 
as drug use. A teen who is ``Above the Influence'' recognizes the risks 
of negative influences and is empowered to live above them.
    The television, print and internet advertisements, and the Web 
site, explore a variety of pressures teens face and the positive value 
of resisting negative influences. All the advertisement executions of 
the concept were reviewed by dozens of teen focus groups before being 
selected for production. Brand and behavioral experts were consulted 
throughout the creative process, and all the television ads were 
subjected to rigorous quantitative copy-testing before airing. The 
cumulative research indicates that the ``Above the Influence'' brand 
resonates across all segments of the target audience by gender, race, 
grade, beliefs and attitudes. The Web site, www.AbovetheInfluence.com, 
includes information and resources, as well as interactive features to 
aid teens in recognizing and rejecting negative influences including 
quizzes and games, along with free downloads and blog icons to share 
with friends.
    The campaign has also begun to focus on the dangers of 
methamphetamine. This past Monday, Director Walters announced in 
collaboration with the Partnership for a Drug Free America a new 
advertising campaign targeting the illicit drug methamphetamine. 
Designed to mobilize individuals and local community groups to reduce 
methamphetamine use at the local level, the new effort will run in 23 
U.S. cities where methamphetamine has a high prevalence.
    The ad campaign combines real-life stories of people impacted by 
methamphetamine with scenarios that depict the unique secondhand threat 
methamphetamine poses to communities at large. The campaign's two main 
themes, ``So, Who Has the Drug Problem Now?'' and ``End Meth in Your 
Town'' challenge individuals to learn more about the threats 
methamphetamine poses to both their families and their communities. The 
advertising campaigns were created pro bono for the Partnership by two 
agencies, Leo Burnett of Chicago and J. Walter Thompson of New York. 
Developed under the direction of the Partnership for a Drug-Free 
America, the research-based campaigns were subject to rigorous 
qualitative testing, and proved resonant among community members, 
spurring them to seek information on methamphetamine and to take part 
in their community's efforts to fight the drug. All advertising spots 
direct audiences to a newly-created microsite on the Partnership's Web 
site, www.drugfree.org/meth.
    In addition to the new Above the Influence brand, the Media 
Campaign continues to support parents through the development of a 
series of advertisements that coach parents in monitoring teen behavior 
and promote early intervention against signs of early drug use.
    The National Youth Anti-Drug Media Campaign will also host 
roundtables around the country with members of the news media and 
representatives from the entertainment industry. Experts on various 
aspects of methamphetamine production, addiction and treatment will be 
invited to discuss the dangers of the drug and answer questions on the 
Administration's approach.
Student Drug Testing
    In addition to the Media Campaign, another promising prevention 
practice is random student drug testing. Over three years have passed 
since the U.S. Supreme Court upheld the authority of public schools to 
test students involved in extracurricular activities for illegal drugs, 
making this powerful tool available to any school battling a drug 
problem. Since that historic ruling, a number of schools across the 
country have seized this opportunity to implement drug testing programs 
of their own.
    As the President stated in his 2004 State of the Union address, 
drug testing has proven to be an effective part of a community-based 
strategy to reduce demand for illegal drugs. Student drug testing is an 
excellent means of protecting kids from a behavior that destroys bodies 
and minds, impedes academic performance, and creates barriers to 
success and happiness, and it is available to any school, public or 
private, that understands the devastation of drug use and is determined 
to confront it. Many schools urgently need effective ways to reinforce 
their anti-drug efforts. Drug testing can help them.
    Indeed, student drug testing is that rare tool that makes all other 
prevention efforts more effective. By giving students who do not want 
to use drugs an ``out,'' testing reduces the impact of peer pressure. 
By giving students who are tempted by drugs a concrete reason not to 
use them, testing amplifies the force of prevention messages. And, by 
identifying students who are using illegal drugs, testing supports 
parental monitoring and enables treatment specialists to direct early 
intervention techniques where they are needed.
    Schools considering adding a testing program to their prevention 
efforts will find reassurance in knowing that drug testing can be done 
effectively and compassionately. The purpose of testing, after all, is 
not to punish students that use drugs, but to prevent use in the first 
place, and to make sure users get the help they need to stop placing 
themselves and their friends at risk. Random drug testing is not a 
substitute for all our other efforts to reduce drug use by young 
people, but it does make those efforts work better.
Drug Free Communities
    Experience has taught us that people at the local level often know 
best how to deal with drug problems in their own communities. But to 
combat the threat, they need good information and the best resources 
available. One way that the Administration is helping to provide them 
with these resources is with the Drug Free Communities support program 
(DFC).
    The Drug Free Communities program, run through ONDCP and 
administered through the Substance Abuse and Mental Health Services 
Administration (SAMHSA), provides grants of up to $100,000 per year to 
communities that come together to form community anti-drug coalitions 
that present a united community front in the fight against drug use. 
The program has two major goals: (1) reduce substance abuse, including 
alcohol, tobacco, and drugs among youth (2) strengthen collaboration 
among various sectors in the community.
    DFC coalitions are required to include members from different parts 
of the community working on multiple community drug prevention 
strategies. Community coalitions catalyze civic action and serve to 
connect individuals from such disparate parts of the community as 
health care, law enforcement, business, drug treatment, and education. 
The Drug Free Communities support program funds over 700 of these 
coalitions that seek to form and sustain effective efforts to fight the 
use of illegal drugs, particularly by youth. Coalitions host activities 
such as town hall meetings on drug issues, youth summits, local drug 
use surveys, beverage server training, youth leadership training, 
social marketing campaigns, and policy change.
    Many of these coalitions are in rural areas where methamphetamine 
use is a particular problem. Coalitions in these areas have been 
working to change the social norms as they are confronted with the 
dangers of methamphetamine. For example, some coalitions in Oregon are 
working with stores to increase awareness about the supplies needed by 
methamphetamine cooks to make the drug, making it harder for 
methamphetamine producers to set up shop in their area. They are also 
working with young people to help them understand the dangers of using 
methamphetamine. Through education and prevention, they are making a 
difference and are acting as the first line of defense against 
methamphetamine and other dangerous drugs.
Other Programs
    ONDCP and the Bureau of Justice Assistance (BJA) have also recently 
launched a new website, www.methresources.gov, as a tool for 
policymakers, law enforcement officials, treatment and prevention 
professionals, businesses and retailers, and anti-drug activists. The 
comprehensive site brings together information and resources available 
to communities on the topic of methamphetamine. The website also 
enables visitors to share information and best practices with one 
another, as well as pose questions to their peers.
    One methamphetamine specific prevention program that the retail 
industry has fostered and ONDCP has supported is ``Meth Watch.'' This 
innovative and voluntary program trains employees in retail 
establishments that sell key precursor chemicals such as 
pseudoephedrine to watch for unusual patterns or behaviors that ``meth 
cooks'' might display such as buying large quantities of these 
chemicals or returning frequently to buy the same chemicals. The 
retailers refuse to sell the products and law enforcement is notified 
so that they can investigate and determine whether the intended 
purchases are part of a methamphetamine lab operation. This is 
particularly important in states that do not have any controls over the 
sales of precursor chemicals.
Conclusion
    I have discussed a variety of prevention programs, including 
school- and community-based programs, student drug testing programs, 
and public service advertisements. These diverse approaches help 
parents keep kids away from alcohol and dangerous drugs like 
methamphetamine and marijuana. Yet none of these programs is enough to 
make a decisive difference without significant parental involvement--
and for good reason. Available research is unambiguous about the 
importance of having parents discuss the dangers of illegal drugs and 
underage drinking with their children. Parents and other caregivers 
need to do more than simply talk about drugs and alcohol. They also 
need to act by monitoring the behavior of teen children, knowing where 
their teenagers are at all times, particularly after school, and 
knowing whom they are with and what they are doing. Such techniques 
have proved remarkably effective in keeping teenagers away from drugs.
    The good news is that parental monitoring has been shown to be 
remarkably effective in reducing a range of risky behaviors among young 
people. Studies indicate that kids who are monitored are one-fourth as 
likely to use illegal drugs and one-half as likely to smoke cigarettes 
as kids who are not monitored. Put another way, the research confirms 
what many parents of teenagers tend to doubt: kids really do listen to 
their parents, and they do respond to parental expectations. For 
example, surveys show that two-thirds of youth ages 13 to 17 say losing 
their parents'' respect is one of the main reasons they do not smoke 
marijuana or use other drugs.
    In conclusion, I am pleased to present to you today the Federal 
government's cooperative efforts to stop methamphetamine in our 
communities. Within the context of our National Drug Control Strategy, 
we know that reducing all drug use including methamphetamine use will 
require a balanced consistent, and coordinated focus from all sectors 
of the community, including the Federal, state, and local government. 
With the continued support of Federal, state, and local leaders, and 
concerned citizens everywhere, we are moving closer to creating an 
America that is free from dangerous drugs such as methamphetamine.
                                 ______
                                 
    Mr. Osborne. Thank you very much, Mr. Denniston. Thank you 
for being here.
    And Judge Icenogle?

 STATEMENT OF HON. JOHN ICENOGLE, DISTRICT JUDGE, DISTRICT 9, 
                       BUFFALO COUNTY, NE

    Mr. Icenogle. It is a privilege. Thank you. It is a 
privilege for me to be here today. I have been a judge in 
central Nebraska for almost 30 years, and I have been doing the 
last 16 years general jurisdiction work which includes criminal 
courts, divorces, child welfare cases, and drug court.
    And I took this opportunity to come and visit with you 
about my observations about what meth is doing within the 
communities and what it is doing to children.
    I am not an expert in law enforcement, and I am not an 
expert in drug treatment programs, and I am not an expert in 
prevention programs. And most of my colleagues will tell you 
that I am probably not an expert in law either.
    But that aside, methamphetamine in our communities has a 
devastating effect on all of our children, and not just the 
children who become users directly. We see the prevalence of 
cooking meth in homes. And when you cook meth, you do it in 
what they call a lab or a kitchen. That kitchen can be in the 
trunk of a car, garage, outside in a shed or, most likely, they 
cook in the kitchen.
    Meth labs, when they go awry, blow up. People are burned, 
and burned severely. Fumes are admitted and people can die. 
There is a reason that law enforcement wears the gear and garb 
that they do when they go into clean up a meth lab, and that is 
to avoid being exposed to the same environment children within 
that home are being exposed to daily.
    The use and manufacture of methamphetamine leaves a residue 
in the home. Blankets, clothing, toys, teddy bears have all 
tested positive for the presence of methamphetamine, thereby 
exposing the children in those homes to the risk of long-term 
physical injury and mental damage.
    The toxin involved causes medical problems, including 
anemia, respiratory illness, neurological symptoms in the 
child, and those toxins have also been linked with 
developmental delay and brain damage.
    The parents in the home who use the meth create a second 
and probably more dangerous threat to the children by being 
their parents. The addicts who are entrusted with the care of 
these children display post-use behaviors that include 
violence, paranoia, hallucination, agitation and schizophrenic-
like symptoms.
    They suffer from cognitive impairments, such as memory 
loss, confusion, insomnia, depression and boredom. The 
cognitive impairments often cause the users to misinterpret 
what other people are saying to them, which results in violent, 
paranoid reactions. The net result is that the children are 
suffering gross abuse and neglect in these homes.
    When the meth addict finally comes down off the drug and 
crashes, that addict sleeps, sometimes for 3 to 5 days. The 
children in that home are often left unfed, unsupervised and, 
perhaps worse, placed in the care or the whims of their drug-
using friends and buddies of the parents.
    When the parents awaken, they suffer from depression, 
heightened cravings for more, and even suicidal ideation. 
Throughout this period of time, these are these children's 
parents.
    The children are also victimized by the environment that we 
see in meth homes. They are victims and witnesses of 
significant domestic violence, physical abuse, and 
methamphetamine is in a culture that is, quite frankly, 
sexually explicit.
    More than one law enforcement officer has marveled to me 
that every meth home seems to lack the basic essentials to take 
care of the children, but they all have a large-screen T.V. and 
an ongoing supply of pornographic videos.
    The children continue to be exposed to a culture of alcohol 
use and drug use as the friends of the users--parents--come and 
go. In Nebraska, we have 1.7 million people. Currently almost 
6,000 children are placed out of home with the Department of 
Health and Human Services. Over half of those children are 
placed--or 62 percent, actually, for non-alcohol substance 
abuse problems of the parents, mostly identified as 
methamphetamine.
    Recently, in Lancaster County, which is the county our 
state capital, in a 2-week period, nine juvenile petitions were 
filed for children born from parents or a mother who had a 
significant meth problem and therefore the new child had a 
significant meth problem as well.
    We have seen the cost, and the cost is tremendous, whether 
it is prisons, whether it is welfare, whether it is medical. 
And I have outlined some of that in my testimony that I 
submitted in writing.
    What I do know is this. If we can take drug courts and 
spend $1 and get a return in savings of $9, which is just 
uniform across the country, what kind of return can we get by 
preventative education? To me, the dollar savings would be 
tremendous. But from our perspective, and my selfish 
perspective, the saving in human misery would be so much 
greater.
    These children deserve better. They deserve a chance. I 
quote one real quick story and why I think prevention is 
necessary. I had a young lady who came into my drug court. She 
had four children who had been removed from her home. She had 
no job, no family support and an addiction.
    Two and a half years later, she came out of drug court. She 
had her children back. She had a job. She had gotten her other 
extended family back and was doing really well. Six months 
later, after leaving the drug court program, she had her meth 
back, had lost her children and did not have a job. It is a 
drug that is best confronted before it is used.
    And I thank you.
    [The prepared statement of Mr. Icenogle follows:]

  Statement of Hon. John Icenogle, District Court Judge, 9th Judicial 
                District of Nebraska, Buffalo County, NE

    Chairman Castle, Ranking Member Woolsey, and members of the 
committee, I want to thank you for the opportunity to testify about the 
issues arising from the production and use of methamphetamine and its 
effects on the children of Nebraska, especially rural Nebraska. My name 
is John Icenogle and I have served the last 30 years as a state court 
judge of general jurisdiction. Initially I served as a state county 
judge with juvenile court jurisdiction. For the last 16 years I have 
presided over cases involving domestic disputes, divorce, child 
custody, criminal law, civil law, and during the last three years have 
also served as a drug court judge. I am not an expert concerning drug 
treatment programs, law enforcement, or even prevention programs. I 
appear here to share with you some of my knowledge and experience 
regarding the effects of methamphetamine on children and their families 
within our communities.
    The manufacture and use of the highly addictive stimulate, 
methamphetamine (meth), has grown exponentially over the last 25 years 
gaining a strong and lethal foothold throughout the midwest and 
southwestern United States. The very nature of the drug victimizes not 
only the addicts but often the children within their care.
    The drug is relatively cheap to purchase on the street, and can be 
made inexpensively at home following recipes available on the internet. 
``Cooking'' meth is almost as easy as baking a chocolate cake. One of 
the simplest recipes requires the use of anhydrous ammonia which is in 
agricultural areas. Laboratories easily fit into car trunks, hotel 
rooms, garages, and home kitchens.
    The labs themselves are extremely dangerous to persons, frequently 
children, within their proximity. The ``cooking'' process involves a 
substantial risk of explosion and produces fumes which can be fatal. In 
my own jurisdiction, a rural county of some 45,000 persons, law 
enforcement has uncovered several meth labs. One was operated by a 
counselor employed by our own youth rehabilitation center. He was 
cooking methamphetamine in the garage of his children's home.
    The use and manufacture of methamphetamine leaves a residue of the 
drug throughout the home. Blankets, clothing, children's toys and even 
teddy bears have tested positive for the presence of methamphetamine 
thereby exposing children to the risk of long term physical injury and 
mental damage. The toxins involved cause medical problems including 
anemia, respiratory illness and neurological symptoms in children. They 
have also been linked to developmental delay and brain damage.
    Parental use of methamphetamine creates a second and even more 
dangerous threat to children because of the drug's immediate and long 
term effects on the user. Addicts entrusted with the care of children 
display post-use behaviors that may include violence, paranoia, 
hallucinations, agitation and schizophrenic-like symptoms. Users suffer 
cognitive impairments such as memory loss, confusion, insomnia, 
depression and boredom. The cognitive impairments often cause users to 
misinterpret body language and words resulting in violent paranoid 
reactions to perceived threats. This neurological damage and psychotic 
behavior can persist months and even years after use is discontinued 
and often results in children suffering gross abuse and neglect.
    When a meth addict stops using the drug, the addict's body often 
``crashes'' seeking sleep. Addicts often sleep from three to five days 
leaving their children unfed, unbathed, unsupervised and often in the 
``care'' or at the whims of their drug using buddies. Upon awakening, 
the addict may suffer from severe depression, heightened cravings or 
suicidal ideations. Throughout all of this, the meth addict is still 
``parenting'' the children.
    The children in a meth home are also victimized by the very 
environment in which they live. They are victims of, or witnesses to, 
significant domestic violence and physical abuse. The methamphetamine 
culture is often sexually explicit. More than one law enforcement 
officer has marveled that almost every meth home he has entered lacked 
the basic essentials for the care of children, but contained a large 
screen tv and ample supplies of pornographic videos. The children in a 
meth home are exposed to both an alcohol and a drug culture as friends 
of the users come and go. Children tend to isolate themselves from 
other children and have high truancy rates from school.
    Children living in an identified meth home are also victimized by 
the necessity of being removed from their home environment. In April, 
2005, 5852 children were living in out-of-home placements within the 
State of Nebraska (a state with a population of only 1.7 million 
people). Sixty-two percent of the parents from whom children are 
removed suffer from non-alcohol substance abuse and more than one-half 
of those have problems primarily due to use of methamphetamine. During 
a recent two week period in Lancaster County, the home county for our 
state capitol, the county attorney filed juvenile petitions on behalf 
of nine newborns because of methamphetamine use by the mothers. In the 
Omaha area, the county attorney's office estimated that at least 50% of 
the children currently entering the state's social service system enter 
because of methamphetamine use.
    Even when identified, meth homes are not quickly fixed. Mom's 
required to choose reunification with their children or continued meth 
usage, all too often choose their drugs rather than their children. One 
Nebraska judge has estimated that in abuse or neglect cases involving 
methamphetamine addicted parents, intervention in his county has been 
successful only 20% of the time. I personally observed one young mother 
enter our drug court program addicted, without family support, without 
employment, and having just lost custody of her four children. After 
two and one-half years in the drug court program, she obtained 
sobriety, became self-supporting, and gained custody of her children. 
Within six months after completing the program, she again started to 
use meth and has lost custody of the children. Although the tale is 
tragic for the mother, it is more tragic for her children.
    One must be mindful that children are not only the innocent victims 
of methamphetamine users within their family or their community, they 
all too often will become users themselves. For some, methamphetamine 
offers a method of weight control, sexual adventure and peer 
acceptance. When children become users, successful redirection of their 
lives and successful treatment interventions are far more problematic 
than for adults.
    As a society we all agree that these children need protection. We 
have spent millions of dollars for enforcement of criminal laws, 
millions of dollars for foster care and programs for the child victims. 
We have spent too few dollars for treatment programs for users. We have 
spent virtually nothing on prevention efforts.
    We recognize the collateral cost of addiction in caring for the 
children of addicts. Additional birthing expenses for a meth mother 
include as much as $1500.00 to $25,000.00 per day for the care of her 
child. Low birth weights caused by meth use necessitate neonatal care 
of some $25,000.00 to $35,000.00. Some children require nearly a 
quarter of a million dollars in care to ensure the child attains the 
age of one. The developmentally delayed children can require up to 
three quarters of a million dollars in special care during the child's 
first 18 years of life.
    The cost of addressing the problem of methamphetamine use is 
staggering and increasing. One wonders what the dollar savings could be 
if we create an effective prevention program. More importantly, one 
wonders how much human misery could be eliminated, especially for 
children, if we address and support effective use prevention programs.
    I want to thank this committee for the opportunity to visit with 
you today and will gladly answer any questions that you might have.

                          INFORMATION SOURCES

    Research on Drug Courts: A Critical Review, Steven Belenko, PhD, 
The National Center on Addiction and Substance Abuse at Columbia 
University, New York, New York. June 2001.
    Painting the Current Picture: A National Report Card on Drug Courts 
and Other Problem Solving Court Programs in the United States, the 
National Drug Court Institute, Washington, D.C., May 2005, Volume I, 
No. 2.
    Parental Methamphetamine Use in Children in Out of Home Care, State 
Foster Care Review Board, State of Nebraska, June, 2005.
    Treatment Methods for Women, National Institute on Drug Abuse, 
National Institute of Health.
    Methamphetamine: New Threat to Women and Children, Kathleen M. 
West, Drug Endangered Children Research Center, Los Angeles, 
California.
    ``Meth Moms'' Choosing Drugs over Children. Article by Carol Bryan 
The Independent, 1999.
    Drug Courts: An Effective Strategy for Communities Facing 
Methamphetamine, see West Huddleston III, Bureau of Justice Assistance, 
United States Department of Justice, May 2005.
                                 ______
                                 
    Mr. Osborne. Thank you very much, Judge. I have been at a 
couple of your drug court graduations and you do a good job, 
and we appreciate it very much.
    Dr. Spoth?

 STATEMENT OF DR. RICHARD SPOTH, PH.D., DIRECTOR, PARTNERSHIPS 
 IN PREVENTION SCIENCE INSTITUTE, IOWA STATE UNIVERSITY, AMES, 
                               IA

    Mr. Spoth. Chairman Osborne and members of the 
subcommittee, thank you for inviting me to represent the 
Partnerships in Prevention Science Institute at Iowa State 
University in this critically important hearing on substance 
abuse prevention with a special focus on methamphetamine abuse.
    As a research institute focused on prevention science, most 
of our work involves experimental studies that evaluate 
outcomes of preventative interventions for youth and families. 
I am here to address a number of questions about our work.
    The first one is what are our methamphetamine-related 
results. Research at our institute has found that interventions 
delivered through our partnerships with schools and communities 
have revealed significant effects on lifetime or past-year 
methamphetamine use, up to 6.5 years after the baseline 
assessment in these studies.
    Results from two of our longitudinal studies are summarized 
in this slide. For example, 11th graders in study two who 
participated in a combination of school-based and family-
focused interventions reported 64 percent less lifetime meth 
use than youth who do not participate in the interventions.
    Second question: What is our science with practice approach 
to prevention? There are five key elements to our approach. The 
first is a linkage of existing state public education systems, 
ones that have infrastructure for optimal delivery and 
evaluation of interventions with other service or resource 
systems.
    This includes public schools and the cooperative extension 
system based in land grant universities. This system serves a 
purpose of disseminating research-based information and 
programming to the general public. It is the largest informal 
education system in the world. It has over 3,150 agents at last 
count and a presence in nearly every county in every state.
    A second feature is strategic partnerships. This slide 
shows our current three-tier partnership structure that helps 
us move our scientifically tested evidence-based interventions 
from the university out into the schools and communities in the 
state that can benefit from them.
    To date, our projects have partnered with 106 public 
schools long term, and many others short term. Our local teams 
are small and strategic. They select interventions from an 
intervention menu and handle all logistics involved with their 
implementation.
    A prevention coordinator team provides continuous proactive 
technical assistance to those local teams. A university 
prevention team provides administrative oversight and offers 
input on data collection and analysis. Currently we are 
implementing this model on a project called Prosper with our 
colleagues at Pennsylvania State University.
    Concerning evidence-based interventions, the Society for 
Prevention Research has summarized standards for them. In a 
word, they are theory-based. They have clear objectives. They 
are rigorously tested and show positive outcomes. Hereafter, I 
will label them EBIs for short.
    One of the key advantages of EBIs is that positive outcomes 
and economic benefits are more likely for youths and families 
and others.
    Number three, the reason for emphasis on quality 
implementation is that numerous studies have shown that over 
time intervention implementation tends to drift away from the 
quality necessary to produce positive program outcomes.
    Number five, we also place a premium on sustainability 
planning, because research suggests that one of the major 
barriers to public health impact of evidence-based 
interventions is a failure to sustain programmatic efforts, 
particularly when the activities are initially funded through 
time-limited grants.
    The third question is what is the evidence that our 
approach works in general. Many positive outcomes from six 
randomized controlled studies and 11 supplemental studies have 
shown effective partnership processes and positive long-term 
outcomes.
    I will share two additional examples. To illustrate 
positive longitudinal outcomes in addition to those concerning 
methamphetamine use, in one of our studies we examined rates of 
substance initiation from 6th grade through 12th grade.
    Analyses demonstrated statistically significant differences 
in the rate of growth for the substance use between our family-
focused intervention group, the blue line, and the control 
group, represented by the red line.
    Results concerning lifetime drunkenness are shown in this 
slide. Importantly, research at our institute and that of 
others has demonstrated the economic benefits of these positive 
substance prevention outcomes.
    This figure shows the estimated return for each dollar 
invested in a family-focused evidence-based intervention under 
actual study conditions, an estimated return of $9.60 for every 
dollar invested. The figure also shows expected changes in the 
dollars returned when the number of adult alcohol use disorders 
prevented per 100 participants is increased by and decreased by 
one.
    The last question that I will answer is how can this kind 
of approach, our approach, help to address larger-scale 
prevention impact. First, we need to rise to the many 
challenges. Our partnership model is designed for dissemination 
to other states. There are, however, some major challenges to 
scaling up this and any other approach.
    First, we need to increase the number of evidence-based 
interventions to serve youth and their families in a culturally 
competent way across all settings and all stages of youth 
development.
    Second, we need to gradually change our delivery systems so 
that they can sustain large-scale quality implementation of 
evidence-based intervention. A large number of states have 
already expressed interest in adopting our partnership model.
    Scaling up for widespread dissemination requires, number 
one, a set of state-focused replication plans to gradually 
bring our partnership model to additional states, to address a 
range of youth development and problem behavior areas where 
evidence-based interventions could help; and two, the 
development of infrastructure to support a network for new 
partnerships, including information materials, technical 
assistance and a structure for partnership networking.
    In short, to hearken to the words that we heard earlier, we 
believe in an investment in the type of partnership approach 
outlined above would save money, do substance-related problems, 
and improve youth and family health and well-being, making a 
real world difference.
    Thank you, and I would be happy to answer any questions 
that you have.
    [The prepared statement of Mr. Spoth follows:]

    Statement of Dr. Richard Spoth, PhD, Director, Partnerships in 
     Prevention Science Institute, Iowa State University, Ames, IA

Introduction
    Mr. Chairman and members of the Subcommittee: Thank you for 
inviting me to represent the Partnerships in Prevention Science 
Institute at Iowa State University in this critically important hearing 
on substance abuse prevention, with its special focus on 
methamphetamine abuse. As a research institute focused on prevention 
science, most of our work involves experimental studies that evaluate 
the outcomes of preventive interventions for youth and families. A 
unique aspect of our program of research is its model of school-
community-university partnerships that implement the interventions and 
help sustain preventive efforts over time.
    As I understand it, my task today is to respond to questions 
concerning our methamphetamine-related findings, how we approach 
methamphetamine and other types of substance abuse prevention, the 
evidence we have that our approach works in general, and how our 
approach can help to address the challenge of large-scale prevention 
impact. I am pleased to do this.
    If I were to respond to this task with one sentence it would be: 
The effort to achieve larger-scale impact is very complex and 
challenging, but there has been much progress and some promising future 
directions are clear. Responses to the questions I have been asked to 
address will serve to highlight these points.
    I. What are some illustrative methamphetamine-related results from 
our prevention work?
    A. Short answer: Our randomized, controlled studies have shown 
intervention effects as long as 6\1/2\ years past the baseline 
assessment.
    B. More detailed answer. To begin with some background information 
on our prevention work, our university motto ``science with practice'' 
captures the central theme of our Institute promoting the application 
and translation of intervention science into community practices, to 
improve people's health and well-being.
    Our Institute's mission is: ``To conduct innovative research 
promoting capable and healthy youth, adults, families, and communities 
through partnerships that integrate science with practice.'' Almost all 
of our work has been funded through grants from the National Institutes 
of Health, the National Institute of Mental Health, the National 
Institute of Alcohol Abuse and Alcoholism, and the National Institute 
on Drug Abuse, with the lion's share of the funding coming from the 
latter. We also have received funding from the Center for Substance 
Abuse Prevention in the Services Administration for Mental Health and 
Substance Abuse.
    In pursuit of this mission we have three primary goals.
    1. To study the effects of prevention and health promotion 
interventions for youth, adults, families, and communities;
    2. To examine factors influencing youth, adult, and family 
involvement in evidence-based prevention, health promotion 
interventions, and intervention research projects; and
    3. To evaluate the quality and sustainability of community-school-
university partnerships and partnership networks, for widespread 
implementation of evidence-based prevention, positive youth 
development, and health promotion interventions.
    To address our first goal we have designed and conducted a number 
of preventive intervention outcome studies. Motivated by the findings 
of epidemiological research on increasing rates of methamphetamine use 
among adolescents, we added meth-specific outcome measures on two of 
our long-running preventive intervention studies. As you know, dramatic 
increases in use among adolescents have been seen; the 2003 prevalence 
rates are almost five times higher than the rates in 1992 (Johnston, O 
Malley, Bachman, & Schulenberg, 2004; Oetting et al., 2000). 
Researchers have noted that adolescents in smaller towns and rural 
areas are particularly vulnerable to methamphetamine use, given the 
potentially powerful peer influences in rural environments and the 
historical appeal of stimulants to rural youth (Wermuth, 2000). The 
threat to rural Midwestern adolescents has been particularly acute 
(Rawson, Anglin, & Ling, 2002; Hall & Broderick, 1991; National 
Clearinghouse on Drug and Alcohol Information, 1997).
    Our analyses of interventions delivered via community-university 
partnerships have revealed significant effects on lifetime or past-year 
methamphetamine use, up to 6.5 years after a baseline assessment. There 
also are some positive results from a third study, based on results 
from data collected at 1.5 years past baseline.
    The following graph illustrates intervention effects on 
methamphetamine use (Spoth, Clair, Shin, & Redmond, 2005). Another way 
of describing the results from eleventh graders in Study 2 is as 
follows: eleventh graders who participated in both school-based and 
family-focused interventions reported 64% less lifetime meth use than 
students who did not participate in the programs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note: ISFP is the Iowa Strengthening Families Program; SFP + LST is 
the Strengthening Families Program (revised ISFP) plus Life Skills 
Training
    II. What is our ``science with practice'' approach to prevention? 
A. Short answer: A science-driven partnership network linking public 
schools, Land Grant Universities and other resource systems.
    B. More detailed answer: There are five key elements in our 
approach:
    1. Linkage of existing, stable public education systems--ones that 
have infrastructure for optimal delivery and evaluation of 
interventions--with other service or resource systems;
    2. Strategic partnerships with ongoing, hands-on technical 
assistance, including direct support from scientists or evaluators;
    3. Evidence-based interventions for positive outcomes and economic 
benefits;
    4. Quality implementation of evidence-based interventions for 
optimizing outcomes; and
    5. Sustainability planning model for long-term local buy-in and 
funding.
    1. Linkage of existing, stable public education systems--ones that 
have infrastructure for optimal delivery and evaluation of 
interventions--with other service or resource systems.
    About 15 years ago we began the first in a series of large-scale 
experimental studies. At that point we saw tremendous potential in the 
linkage of public education intervention delivery systems--the State 
Land Grant University System and the Public School System and linking 
them, in turn, with other community service delivery systems. In large 
measure, we saw the potential of their existing capacity for 
intervention delivery and for partnering in intervention research. To 
highlight this capacity, I will mention a few salient features of 
public education delivery systems.
    The Cooperative Extension System is: the largest informal education 
system in the world; has over 3,150 agents in nearly every county that 
are highly educated; and has a ``science with practice'' orientation. 
The Public School System is a universal program delivery system 
reaching nearly all children; it has networks within each state for 
programming support and has increasing emphasis on accountability, as 
well as an empirical orientation.
    For those of you who are less familiar with the Land Grant 
University and the Extension System, the Morrill Act of 1862 and the 
Hatch Act of 1887 established the U.S. Department of Agriculture and 
granted land in each state to support a college for teaching 
agriculture and engineering, as well as establishing agricultural 
experiment stations to conduct research. The Extension system soon 
followed, to carry the practical and relevant education to ordinary 
citizens through an extensive network of state, regional, and county 
extension offices in every U.S. state and territory. Its mission is: 
``To advance knowledge for agriculture, the environment, human health 
and well-being, and communities by supporting research, education, and 
extension programs in the Land-Grant University System and other 
partner organizations.'' Extension is uniquely funded by a combination 
of federal, state, and county government monies.
    Our framework is designed to seize the opportunity for intervention 
delivery in the existing public education systems. We do so by 
following Everett Rogers'' (1995) ``linking agents'' concept from his 
Diffusion of Innovation Theory. That is, we emphasize the role of Land 
Grant University Extension agents who link public school personnel who 
are aiming to implement tested, proven programs for their students and 
families, with systems of external services and resources, to promote 
health and well-being among youth and families.
    In sum, linking public schools with the Land Grant Extension System 
and with other social and human services facilitates our efforts by 
helping PPSI to:
    a. Deliver evidence-based interventions that have the greatest 
likelihood of producing favorable individual- and community-level 
outcomes;
    b. Have the potential to reach every community across the U.S.;
    c. Focus on community capacity-building and sustainability, so that 
chosen interventions will continue to be implemented over time; and
    d. Develop and maintain ongoing partnerships, to which I will turn 
next.
    2. Strategic partnerships with ongoing, hands-on technical 
assistance, including direct support from scientists or evaluators.
    Over the 15 years our projects have entailed partnering with 106 
public schools on a long-term basis and many others on a short-term 
basis. Over the course of the last 15 years, our partnership model has 
evolved. To begin, our evaluation of community-based interventions had 
an initial community-university partnership structure for collaborative 
research and program implementation. In a study called Project Family 
Trial I, we collaborated with local Extension agents early in the 
process to help coordinate with local public school staff and program 
facilitators who, in turn, closely communicated with university 
partners to implement and evaluate our preventive interventions. This 
led to a second generation partnership structure employed in another 
earlier project, namely the ``Capable Families and Youth'' Project, 
where we learned how helpful it was to involve Extension staff who 
acted as linking agents at the state/regional level and assisted in 
coordinating our intensive program implementation and evaluation work 
across communities. The second generation partnership added a loosely-
knit group of community residents who helped with organization and 
implementation of the intervention, but did not function as a team 
committed to long-term implementation (e.g., with regularly scheduled 
meetings and decision-making capabilities concerning implementation).
    Inspired by the successes of the first two generations of 
partnership projects, we co-hosted a conference about Extension-
assisted research projects (Spoth, 1998) that led to the design for the 
third generation of community partnerships. A salient, somewhat unique 
feature of the third generation is the relatively small size of the 
community partnerships, compared with so-called ``big tent'' community 
coalitions. These teams are designed to be very strategic, with focused 
intervention goals, and the responsibility to select interventions to 
implement locally (both family-focused and school-based) from an 
intervention menu.
    The organizational structure for the third generation partnership 
model is outlined in Figure 1. Three teams form the model.
    a. Local Strategic Teams:
    <bullet> Are comprised of Extension System staff who serve as 
linking agents between public school system and other service or 
resource systems, such as health and social service provider 
organizations, as well as other local community stakeholders, including 
parent groups, and youth groups;
    <bullet> Meet regularly to plan activities/review progress;
    <bullet> Select interventions from an intervention menu;
    <bullet> Recruit participants for family-focused interventions;
    <bullet> Hire and supervise program implementers;
    <bullet> Handle all logistics involved with program implementation;
    <bullet> Market the partnership model in their communities; and
    <bullet> Locate resources for sustaining programs after grant 
funding ends.
    A Prevention Coordinator Team:
    <bullet> Includes prevention coordinators based in university 
outreach or Extension system;
    <bullet> Provides support to local teams; and
    <bullet> Provides ongoing, hands-on technical assistance, as well 
as documentation of ongoing partnership processes.
    A University Prevention Team:
    <bullet> Includes prevention scientists and Extension Program 
Directors;
    <bullet> Provides resources and support to both local and 
prevention coordinating teams; and
    <bullet> Provides administrative oversight, offers input on data 
collection and analyses, and drafts project reports.
    There are three phases of team development. During the first phase, 
team members are selected, regular meetings are scheduled, and the team 
begins to plan intervention work. While in the second ``operations'' 
phase, the teams learn about evidence-based interventions on the menu, 
consider their local community needs, select family-focused and school-
based interventions, recruit for the family interventions, and 
implement both types of interventions. During the third phase, teams 
develop plans for sustaining their team and their selected 
interventions; subsequently the team implements sustainability plans 
(including marketing their efforts and generating resources) and 
monitors its progress.
    Organizational Structure for Community-School-University 
Partnership Model
    (Across three phases of organization, operations, and 
sustainability)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Currently, we are implementing this model on a project called 
PROSPER (PROmoting School-community-university Partnerships to Enhance 
Resilience) conducted in collaboration with our colleagues at 
Pennsylvania State University.
    3. Evidence-based interventions for positive outcomes and economic 
benefits.
    The Society for Prevention Research has summarized standards for 
classifying interventions as evidence-based. By those standards, 
evidence-based interventions, or EBIs, are those interventions that: 
(a) emphasize a strong theory base; (b) clearly specify target 
populations and outcomes; (c) use psychometrically sound measurement of 
outcomes; and (d) are supported by rigorous evaluation of outcomes, 
preferably randomized, controlled studies. The advantages of EBIs are:
    a. Positive outcomes and economic benefits more likely for youth, 
families and others;
    b. Better accountability--resources not used for ineffective 
programs;
    c. Potentially better access to funding that is increasingly 
restricted to EBIs; and
    d. Availability of materials, training and technical assistance.
    Our focus has been on the partnership-based implementation of EBIs 
designed for general community populations. These EBIs aim to 
positively influence the two most important socializing environments 
for youth; namely, family and school. Extensive research has shown that 
key causal factors for substance abuse originate in the family and/or 
school environments, including parenting skills (e.g., parent-child 
communication, warmth, consistent discipline, and monitoring of child 
activities) and youth skills (e.g., social competence, decision-making, 
assertiveness, and substance refusal skills). EBIs included in 
Institute projects aim to influence these causal factors. Two examples 
follow.
    A family-focused EBI we have evaluated extensively, the 
Strengthening Families Program: For Parents and Youth 10-14 (formerly 
the Iowa Strengthening Families Program), is based upon theory and 
empirical research (DeMarsh & Kumpfer, 1986; Kumpfer, Molgaard, & 
Spoth, 1996; Molgaard, Spoth, & Redmond, 2000). Goals include the 
enhancement of parental skills in nurturing, limit-setting, and 
communication, as well as a range of youth competencies, including peer 
resistance skills. Skills are taught to both parents and their young 
adolescent by trained facilitators during seven consecutive weekly 
sessions. Each session includes a separate, concurrent one-hour parent 
and youth skills-building curriculum, followed by a one-hour family 
curriculum during which parents and youth practice skills learned in 
their separate sessions. Sessions use discussions, skill-building 
activities, videotapes that model positive behavior, and games designed 
to build skills and strengthen positive interactions among family 
members.
    A school-based EBI we have evaluated, the Life Skills Training 
Program, was developed at Cornell University by Gilbert Botvin and his 
colleagues (Botvin, 1996, 2000), and is theory-based (Bandura, 1977; 
Jessor & Jessor, 1977). It consists of several lessons taught to 
adolescents during middle school. The primary programmatic goals are to 
promote skill development (e.g., social resistance, self-management, 
and general social skills) and to provide a knowledge base concerning 
the avoidance of substance use. Students are trained in the various 
skills through the use of interactive teaching techniques, including 
coaching, facilitating, role modeling, feedback, and reinforcement, 
plus homework exercises and out-of-class behavioral rehearsal.
    It is very important to note that all of the EBIs we have 
implemented and evaluated aim to prevent all substance use and do not 
focus on any one substance in particular; however, we do subscribe to 
the idea that if there is a delay in initiation of alcohol use (the 
substance of choice among rural youth), that delay will help prevent 
the use or abuse of more serious substances, like methamphetamines.
    4. Quality Implementation of evidence-based interventions for 
positive outcomes and economic benefits.
    Many prevention efforts fail because of the common misperception 
that effective EBIs can be easily implemented, but the relevant 
literature indicates this is seldom the case (Backer, 2003; Fixen et 
al., 2005; Greenberg et al., 2000). Furthermore, numerous studies have 
shown that program implementation tends to drift away from the quality 
necessary to produce positive program outcomes. Implementing effective 
programs is difficult work, and requires careful, ongoing evaluation of 
the effectiveness of the implementation process. Our school-community-
university partnerships work hard to maintain a high quality of program 
implementation. To accomplish this goal, our partnerships engage in 
problem-solving, resource generation, and applying research findings to 
increase implementation effectiveness. Our data, from trained observers 
of the implementation process, consistently show high-quality 
implementation.
    5. Sustainability planning model for long-term local buy-in and 
funding.
    Research suggests that one of the major barriers to public health 
impact of EBIs is the failure to sustain programmatic efforts, 
particularly when the activities are initially funded through time-
limited grants. Central to our partnership approach is a strategic 
sustainability planning model that begins early in the process. Our 
partnerships emphasize sustainability of both a well-functioning 
community team and of continued, quality implementation of EBIs, with 
emphasis on the generation of local financial and human resources. We 
are pleased that by the fourth year of our PROSPER project, 
sustainability planning has resulted in 100% of communities obtaining 
at least partial funding to continue programming.
    III. What is the evidence that our approach works in general? A. 
Short answer: Six randomized, controlled studies and 11 supplemental 
studies over 15 years have shown effective partnership processes and 
positive long-term outcomes on substance use, problem behaviors, 
positive youth development, and family functioning. Again, we are 
grateful for our funding for this research from the National Institute 
on Drug Abuse, the National Institute on Alcohol Abuse and Alcoholism, 
the National Institute on Mental Health, and the Center for Substance 
Abuse Prevention.
    B. More detailed answer: As noted, over the past 15 years we have 
amassed substantial positive findings from a number of studies, in 
pursuit of our mission to promote healthy youth and families through 
school-community-university partnerships. The school-based and family-
focused EBIs implemented have primarily focused on reduction of 
substance- and conduct-related problems. Benefits of EBI implementation 
extend beyond that, however, including positive effects on other mental 
health outcomes and mental health promotion (for example, enhanced 
parenting skills).
    To illustrate positive longitudinal outcomes, in addition to those 
concerning methamphetamine use, in one of our studies we examined rates 
of substance initiation from 6th grade through 12th grade. The pattern 
of growth in initiation of substances of choice (for example, alcohol) 
follows a specific type of pattern, with an initially slow growth rate 
that rapidly increases and then returns to a slower growth rate in the 
latter years of high school. The estimated growth curves demonstrated 
statistically significant differences in the rate of growth for 
substance use for our family-focused EBI and control groups (see Figure 
below illustrating lifetime drunkenness). Other alcohol-related 
initiation measures (such as lifetime alcohol use) showed similar 
growth patterns (Spoth, Redmond, Shin, & Azevedo, 2004).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Other analyses have focused on the average age at which students in 
each experimental condition reach a certain rate of use on a range of 
lifetime use measures. Such analyses allow for a comparison between the 
family-focused EBI group and the control group on the age at which a 
certain percentage of students (often 50%) have progressed from ``no 
use'' to initiation (e.g., begin smoking cigarettes). For example, if 
we look at when 50% of the students report ever being drunk, this 
occurred more than two years later in the EBI group than the control 
group (at age 17.8 vs. 15.5) (Spoth et al., 2004).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To determine whether EBIs are effective for high-risk students, 
effects on substance use for higher- versus lower-risk adolescents also 
are important to consider. Typically our interventions show that 
higher-risk youth and families benefit as much as lower-risk youth and 
families. In other cases, higher-risk youth benefit more. In the 
following example, youth are defined as higher risk if they already 
have used two or more substances--alcohol, cigarettes, marijuana--prior 
to implementation of the EBIs. The following graph illustrates strong 
intervention effects on yearly marijuana use for higher risk youth 
(Spoth, Guyll, & Day, 2002).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note: ISFP is the Iowa Strengthening Families Program; SFP + LST is 
the Strengthening Families Program (revised ISFP) plus Life Skills 
Training.
    Importantly, research at PPSI and that of others has demonstrated 
the economic benefits of these positive substance prevention outcomes. 
For example, to estimate benefit-cost ratios we used data on 
intervention effects on the delay of onset in alcohol use along with 
data on (a) the relation between delayed onset of alcohol use in 
adolescence and alcohol use disorders in adulthood, and (b) the 
societal costs avoided by preventing adult alcohol use disorders. The 
next figure shows the estimated return for each dollar invested in the 
family-focused EBI under actual study conditions--an estimated return 
of $9.60 for each dollar invested. If additional positive outcomes, 
such as those on meth use, were factored into the equation, the return 
would be even greater. The next figure also shows the expected changes 
in the dollars returned when the number of adult alcohol use disorders 
prevented per 100 participants is increased and decreased by 1. The 
fact that the estimates remain well above zero suggests the robustness 
of the conclusion that the preventive intervention constituted a 
fiscally sound investment (Spoth, Guyll, & Day, 2002).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Also, the principal conclusion of an exhaustive analysis conducted 
by the Washington State Institute for Public Policy found that some EBI 
youth programs are excellent investments. This report suggests that 
whether funds are federal, state, or local government, corporate or 
private, investing resources in proven, ``blue chip'' prevention stock 
is fiscally sound. The Washington State Institute for Public Policy 
(Aos, Phipps, Barnoski, & Lieb, 2001) estimated the comparative costs 
and taxpayer benefits for over 60 prevention programs. PPSI's PROSPER 
project has successfully implemented several of the programs reviewed 
in this report. Each program shows a net savings per child attending 
and a positive return on investment (see table below).


----------------------------------------------------------------------------------------------------------------
                                                                                                 Strengthening
                                                                                Life Skills    Families Program:
                                               Project ALERT     All Stars       Training       For Parents and
                                                                                                  Youth 10-14
----------------------------------------------------------------------------------------------------------------
SAVINGS per child attending.................             $54            $120            $717              $5,805
RETURN on every $1 invested.................          $18.02           $3.43          $25.61               $7.82
----------------------------------------------------------------------------------------------------------------

    Information on other outcomes, including those on youth skills, 
parenting skills, family functioning, and mental health outcomes can be 
found on our website (ppsi.iastate.edu).
    IV. How can our approach help to address the challenges of larger-
scale prevention impact?
    A. Short answer: Achieving larger-scale impact requires 
confrontation with some major challenges; infrastructure support and 
resources to expand the partnership network are needed.
    B. More detailed answer: Two of the major challenges to achieving 
community-level impact of preventive interventions on a large scale 
concern EBIs. First, we need to increase the number of EBIs to serve 
youth and their families in a culturally-competent way, across all 
settings and all stages of youth development. Second, and most 
importantly, we need effective delivery systems that sustain large-
scale, quality implementation of these EBIs.
    As concerns the first need, over the past two decades the field of 
prevention science has been successful in greatly expanding the number 
of EBIs. Nonetheless, although many reviews of EBIs have catalogued a 
large number of relevant interventions for youth, families and 
communities (e.g., Catalano, Berglund, Ryan, Lonczak, & Hawkins, 2002; 
Durlak & Wells, 1997; Eccles & Gootman, 2002; Gottfredson & 
Gottfredson, 2002; Greenberg, Domitrovich, & Bumbarger, 2000), most 
interventions implemented in real-world settings are not evidence-
based. Further, more EBIs are required to meet the demands of all youth 
and families across rural, suburban, and urban settings.
    Although noteworthy progress has been made in the development and 
testing of EBIs, limited headway has been made with the second 
challenge of sustained, large-scale, quality delivery of EBIs. The EBIs 
that exist are not widely disseminated, and those that are disseminated 
are often not implemented with quality, nor sustained over time (Ennett 
et al., 2003; Hallfors et al., 2002). Community partnerships are 
increasingly seen as a means of addressing this issue; however, we 
clearly need more research on the process of disseminating EBIs and 
scaling them up for greater public health impact. We also need 
capacity-building for sustained quality implementation both within and 
across networks of communities (Spoth & Greenberg, 2005).
    Addressing the challenge of effective, large-scale delivery will 
require some difficult systems-level changes in our primary EBI 
delivery system. As an example, some needed changes were highlighted in 
a survey of Extension staff. Survey results suggested five key areas in 
need of attention: (1) changing countervailing organizational values or 
beliefs, such as the belief that existing resources should primarily 
sustain traditional programming (e.g., traditional 4H youth programs); 
(2) competing reward structures for Extension staff, such as rewards 
for reporting high numbers of people attending meetings or those 
reached through newsletters, rather than for EBI results; (3) competing 
programmatic resource demands for already-existing programs, plus the 
need to see new sources of funding for existing programs, (i.e., as 
described by Extension staff: ``I'm always dealing with what makes the 
phone ring and the door swing''); (4) increasing administrative support 
for collaboration on EBI implementation; and (5) increasing the number 
of champions for EBIs. It is expected that following the model 
diffusion process described subsequently would greatly facilitate these 
types of changes, over time.
    Our partnership model is designed for dissemination to states 
across the entire U.S. Indeed, a large number of states already have 
expressed interest in adopting our partnership model. Scaling up for 
widespread dissemination requires:
    <bullet> A set of state-focused replication plans to bring our 
partnership model to additional states, to address a range of youth 
development and problem-behavior areas where EBIs could help.
    <bullet> The development of infrastructure to support a network for 
new partnerships, including informational materials, technical 
assistance, and a structure for partnership networking.
    We believe that it will be important to follow a diffusion of 
innovation approach (Rogers, 1995), starting with ``early adopter'' 
states that demonstrate readiness for successful model implementation, 
as capacity is built for supporting additional states and communities 
that subsequently adopt the partnership model. As the early adopter 
states show positive results from their pilot projects, the level of 
interest in adopting the model, and in developing the capacity to 
respond to that interest, would allow the partnership model to spread 
and the partnership network to develop.
    In other words, a sequence would unfold in which, first, the model 
will be expanded to additional communities beyond the pilot communities 
within the early adopter states. Then, the dissemination model will be 
expanded into additional states, involving gradually increasing numbers 
of communities beyond the pilot communities. In addition, the model 
will be applied to positive youth development and reduction of problem 
behaviors beyond substance abuse and conduct problem prevention. For 
example, we are working with obesity prevention researchers to adapt 
the model to that area. The partnership model is a general framework 
that is not restricted to substance prevention interventions--although, 
to date, the evidence for model effectiveness has been focused on 
substance abuse and conduct problem prevention.
    1. State-focused replication and expansion plans.
    To start, replication efforts in additional states will focus on 
implementing and testing EBIs preventing substance abuse and conduct 
problems, along with related positive youth development for middle 
school youth. In all cases, replication projects will build upon 
existing partnership-related efforts within the state (such as 
Community Anti-Drug Coalitions of America, Communities that Care 
Coalitions). To ensure success of the replication effort we will 
consider the readiness of states and communities to implement the 
partnership model. This will include readiness assessments that 
evaluate interest in the project among opinion leaders within Extension 
and public education, as well as possibilities of partnering with 
prevention scientists and evaluators in the state. In addition, 
prospective communities that might be involved would need to 
demonstrate commitment to prevention, the resources available for the 
community effort, and evidence of relevant past collaboration.
    Each statewide replication effort will begin with the formation of 
a steering committee, with representation from Extension, prevention 
research scientists, the state Department of Education, and other 
stakeholders or potential funders. The steering committee will review 
interest in replication at the state and community levels; 
subsequently, the committee will make a decision concerning the level 
of interest and the presence of funding to drive a replication effort 
under their guidance, with support from the national partnership 
network infrastructure.
    If the decision is made to proceed in prospective replication 
states, plans will be made for state team development, supportive 
infrastructure, and community pilot studies (ideally, three or four 
communities in each state). State leadership will be provided by the 
steering committee and a prevention coordinator, along with local 
leadership supervising a community team. Each community pilot will 
include funding for an evaluation component to inform project 
improvements as it proceeds and to contribute to a knowledge-base about 
the partnership model.
    2. Partnerships Infrastructure Development and Research.
    Necessary national infrastructure to support the network of 
partnerships will include:
    a. an information dissemination component including a website;
    b. technical assistance for each replication state;
    c. partnership manuals and handbooks;
    d. an information management system; and
    e. a national-level steering committee, including representatives 
from both the replication states and the initiating states.
    The partnership model in each replication state will be patterned 
after the existing PROSPER model currently being implemented in Iowa 
and Pennsylvania.
    There are limited financial resources and capacity for partnership 
model diffusion and network development. With the probable reduction to 
the U.S. DOE Safe and Drug Free Schools funding, the pool of resources 
for substance prevention programming by community partnerships will be 
diminished. Given the increasing emphasis placed on demonstrating 
program effectiveness, it is worth restating that, based on 15 years of 
PPSI research, a high return on investment for substance abuse 
prevention would likely result when community partnerships implement 
EBIs with high quality, in conjunction with university partners that 
have the capacity to provide ongoing technical assistance and program 
evaluation.
    From the perspective of the above described approach, the most 
effective use of federal dollars for substance abuse prevention 
requires: (1) effective linkages among key intervention delivery and 
evaluation systems; (2) strategic school-community- university 
partnerships; (3) the use of EBIs; (4) implementation with fidelity; 
and (5) sustainability planning. As an example of legislation that 
supports this type of approach, the HeLP America Act (HAA) is designed 
to have a positive impact on public mental health and well-being. To 
accomplish this goal, the HAA emphasizes the aforementioned key 
elements, including the highest caliber of programs, delivered with 
high quality by community-based partnerships. The HAA also recommends 
that strong emphases be placed on both sustaining the program after 
initial funding ends and on the importance of a high-quality 
programmatic evaluation to accomplish this goal. In other words, the 
HAA is one step in the direction of what clearly is needed in a steady 
and substantial long-term stream of funding.
    In short, we believe an investment in the type of partnership 
approach outlined above would: (a) save money; (b) reduce substance 
use-related problems; and (c) improve youth and family health and well-
being, making a ``real world'' difference.
    Again, I thank you for this opportunity and I would be happy to 
answer any questions you may have.

                               REFERENCES

    Aos, S., Phipps, P., Barnoski, R., & Lieb, R. (2001). The 
comparative costs and benefits of programs to reduce crime. Version 4.0 
(Research Report No. WSIPP-1-05-1201, Clearinghouse No. UD 034 215). 
Olympia, WA: Washington State Institute for Public Policy. (ERIC 
Document Reproduction Service No. ED453340) Available [On-line]: http:/
/www.wsipp.wa.gov/rptfiles/costbenefit.pdf or http://www.eric.ed.gov/
    Backer, T. E. (2003). Evaluating community collaborations. New 
York: Springer.
    Botvin, G. J. (1996). Substance abuse prevention through Life 
Skills Training. In R. DeV. Peters & R. J. McMahon (Eds.), Preventing 
Childhood Disorders, Substance Abuse, and Delinquency (pp. 215-240). 
Thousand Oaks, CA: Sage.
    Botvin, G. J. (2000). Life Skills Training. Princeton, NJ: 
Princeton Health Press
    Bandura, A. (1977). Social learning theory. Englewood Cliffs, NJ: 
Prentice Hall.
    Catalano, R. F., Berglund, M. L., Ryan, J. A. M., Lonczak, H. S., & 
Hawkins, J. D. (2002). Positive youth development in the United States: 
Research findings on evaluations of positive youth development 
programs. Prevention & Treatment, 5, Article 15. Retrieved November 17, 
2003, from: http://www.journals.apa.org/prevention/volume5/
pre0050015a.html
    DeMarsh, J. P., & Kumpfer, K. L. (1986). Family-oriented 
interventions for the prevention of chemical dependency in children and 
adolescents. In S. Griswold-Ezekoye, K. L. Kumpfer, & W. J. Bukowski 
(Eds.), Childhood and chemical abuse: Prevention and intervention (pp. 
117-151). New York: Haworth Press.
    Durlak, J. A., & Wells, A. M. (1997). Primary prevention mental 
health programs for children and adolescents: A meta-analytic review 
[Special issue: Meta-analysis of primary prevention programs]. American 
Journal of Community Psychology, 25(2), 115-152.
    Durlak, J. A., & Wells, A. M. (1997). Primary prevention mental 
health programs: The future is exciting [Special issue: Meta-analysis 
of primary prevention programs]. American Journal of Community 
Psychology, 25(2), 233-243.
    Ennett, S. T., Ringwalt, C. L., Thorne, J., Rohrbach, L. A., 
Vincus, A., Simons-Rudolph, A., et al. (2003). A comparison of current 
practice in school-based substance use prevention programs with meta-
analysis findings. Prevention Science, 4(1), 1-14.
    Eccles, J., & Gootman, J. A. (Eds.). (2002). Community programs to 
promote youth development. National Research Council and Institute of 
Medicine. National Academy Press: Washington, D.C. Retrieved November 
17, 2003, (The report is available as an ``open book'' online) from: 
http://www.nap.edu/catalog/10022.html
    Fixsen, D. L., Naoom, S. F., Blase, K. A., Friedman, R. M., & 
Wallace, F. (2005). Implementation research: A synthesis of the 
literature. University of South Florida, Louis de la Parte Florida 
Mental Health Institute, The National Implementation Research Network 
(FMHI Publication 231).
    Greenberg, M. T., Domitrovich, C. E., Graczyk, P. A., & Zins, J. E. 
(2001). The study of implementation in school-based prevention 
research: Theory, research and practice. Report submitted to the Center 
for Mental Health Services (CMHS) and Substance Abuse and Mental Health 
Administration (SAMHSA), U.S. Department of Health and Human Services.
    Gottfredson, D. C., & Gottfredson, G. D. (2002). Quality of school-
based prevention programs: Results from a national survey. Journal of 
Research in Crime and Delinquency, 39(1), 3-35.
    Greenberg, M. T., Domitrovich, C. E., & Bumbarger, B. (2000). 
Preventing mental disorders in school-aged children: A review of the 
effectiveness of prevention programs. Retrieved November 17, 2003, 
from: http://www.prevention.psu.edu/resources.html
    Hall, J. N., & Broderick, P. M. (1991). Community networks for 
response to abuse outbreaks of methamphetamine and its analogs. In M. 
A. Miller & N. J. Kozel (Eds.), Methamphetamine abuse: Epidemiologic 
issues and implications [Electronic version] (National Institute on 
Drug Abuse Research Monograph Series, NIDA Research Monograph No. 115, 
DHHS Publication No. ADM 91-1836, pp. 109-120). 1991: Rockville, MD: 
National Institute on Drug Abuse; Alcohol, Drug Abuse, and Mental 
Health Administration; U.S. Department of Health and Human Services.
    Hallfors, D., Cho, H., Livert, D., & Kadushin, C. (2002). Fighting 
back against substance abuse: Are community coalitions winning? 
American Journal of Preventive Medicine, 23(4), 237-245.
    Jessor, R., & Jessor, S. L. (1977). Problem behavior and 
psychosocial development: A longitudinal study of youth. New York: 
Academic Press.
    Johnston, L. D., O Malley, P. M., & Bachman, J. G. (2001). The 
Monitoring the Future National Survey Results on Adolescent Drug Use: 
Overview of Key Findings. Bethesda, MD: National Institute on Drug 
Abuse; 2002. Publication NIH 02-5105.
    Johnston, L. D., O Malley, P. M., Bachman, J. G., & Schulenberg, J. 
E. (2004). Monitoring the future national results on adolescent drug 
use: Overview of key findings. Bethesda, MD: National Institute on Drug 
Abuse (2005). Available online at http://monitoringthefuture.org/pubs/
monographs/overview2004.pdf
    Kumpfer, K. L., Molgaard, V., & Spoth, R. (1996). The Strengthening 
Families Program for the prevention of delinquency and drug use. In R. 
D. Peters & R. J. McMahon (Eds.), Preventing childhood disorders, 
substance abuse, and delinquency (pp. 241-267). Thousand Oaks, CA: 
Sage.
    Molgaard, V. M., Spoth, R., & Redmond, C. (2000). Competency 
training: The Strengthening Families Program for Parents and Youth 10-
14. OJJDP Juvenile Justice Bulletin (NCJ 182208). Washington, DC: U.S. 
Department of Justice, Office of Juvenile Justice and Delinquency 
Prevention.
    The National Clearinghouse on Drug and Alcohol Information (NCADI). 
The methamphetamine challenge: Threatening communities coast-to-coast 
(telecast Downlink), June 19, 1997.
    Oetting, E. R., Deffenbacher, J. L., Taylor, M. J., Luther, N., 
Beauvais, F., & Edwards, R. W. (2000). Methamphetamine use by high 
school students: Recent trends, gender and ethnicity differences, and 
use of other drugs. Journal of Child & Adolescent Substance Abuse, 
10(1), 33-50.
    Rawson, R. A., Anglin, M. D., & Ling, W. (2002). Will the 
methamphetamine problem go away? Journal of Addition Disorders, 21, 5-
19.
    Rogers, E. M. (1995). Diffusion of innovations (4th ed.). New York: 
Free Press
    Spoth, R., Clair, S., Shin, C., & Redmond, C. (2005). Two 
randomized studies of the long-term effects of brief, partnership-based 
universal interventions on prevention of methamphetamine use. 
Manuscript under review.
    Spoth, R. L., & Greenberg, M. T. (2005). Toward a comprehensive 
strategy for effective practitioner-scientist partnerships and larger-
scale community benefits. American Journal of Community Psychology, 
35(3/4), 107-126.
    Spoth, R., Greenberg, M., Bierman, K., & Redmond, C. (2004). 
PROSPER Community-university partnership model for public education 
systems: Capacity-building for evidence-based, competence-building 
prevention. Prevention Science [Invited article for Special issue], 
5(1), 31-39.
    Spoth, R., Guyll, M., & Day, S. X. (2002). Universal family-focused 
interventions in alcohol-use disorder prevention: Cost-effectiveness 
and cost-benefit analyses of two interventions. Journal of Studies on 
Alcohol, 63(2), 219-228.
    Spoth, R., Randall, G. K., Shin, C., & Redmond, C. (in press). 
Randomized study of combined universal family and school preventive 
interventions: Patterns of long-term effects on initiation, regular 
use, and weekly drunkenness. Psychology of Addictive Behaviors.
    Spoth, R., Redmond, C., Shin, C., & Azevedo, K. (2004). Brief 
family intervention effects on adolescent substance initiation: School-
level curvilinear growth curve analyses six years following baseline. 
Journal of Consulting and Clinical Psychology, 72(3), 535-542.
    Wermuth, Laurie. (2000). Methamphetamine use: Hazards and social 
influences. Journal of Drug Education, 30(4), 423-433.
                                 ______
                                 
    Mr. Osborne. Okay. Thank you.
    I think we have a vote coming up, so, Ms. Cain, we will be 
able to take your testimony. Since a couple of people have to 
catch airplanes, we probably will not come back.
    So we really appreciate it. I wish we had more time to ask 
questions, but why don't you go ahead with your testimony, Ms. 
Cain, at this point?

    STATEMENT OF MS. CRISTI CAIN, STATE COORDINATOR, KANSAS 
         METHAMPHETAMINE PREVENTION PROJECT, TOPEKA, KS

    Ms. Cain. Chairman Osborne and other distinguished members 
of the committee, thank you for the opportunity to testify 
today on behalf of the Kansas Methamphetamine Prevention 
Project. I am pleased to be able to provide information today 
about prevention efforts in Kansas and across the United 
States.
    Methamphetamine production and use results in tremendous 
economic and social costs to communities across the nation, 
which includes property crimes and health care costs.
    One major concern is for the children affected by their 
parents' methamphetamine use and manufacture, including 
children prenatally exposed. The cost of one meth-exposed 
infant can total over $1.7 million during their life span.
    The statewide Kansas Methamphetamine Prevention Project was 
implemented in October 2002. KMPP provides training and 
technical assistance on comprehensive, community-wide 
strategies for addressing the methamphetamine problem that 
focus on both reducing the supply of and the demand for meth.
    Two-thirds of Kansas counties have implemented efforts to 
address methamphetamine, and we have assisted 38 states by 
providing training, technical assistance and resources.
    Key components of what was implemented in communities 
across the state include training key community leaders, 
assessing the level of the meth problem at the community level, 
building public awareness by targeting specific community 
sectors with education, including retailers, farmers, property 
owners, hotel employees, first responders, and chance encounter 
occupations, including home visitation professionals, and 
through media campaigns.
    Another key component focuses on changing specific features 
of the environment through efforts including Meth Watch, which 
is a program designed to engage retail stores, to address the 
sale and theft of meth precursor products, and also anhydrous 
ammonia control strategies.
    Providing targeted education and skills building are also 
key components. We partner with Safe and Drug-Free Schools 
programs to ensure that effective drug prevention curricula and 
programming are implemented in the schools.
    Our efforts include youth involvement and training for 
school staff. Working to change policies and practices at both 
the state and local level is another key component.
    Kansas passed a Schedule 5 law which significantly reduces 
access to cold medications containing pseudoephedrine. Another 
law passed was an increase in the penalty for meth-related 
activity in the presence of a child.
    Other changes in policies and practices have included 
policy changes in how community agencies provide services for 
children born meth exposed or found in meth environments.
    Other strategies implemented include the development of 
drug-endangered children programs which have momentum 
nationally. Kansas has state and local efforts to assist 
children who have been affected by their parents' meth use and 
manufacture.
    Counties implementing efforts reported decreases in thefts 
of precursor products, reduced usage by youth, reductions in 
perceived availability by youth, improved collaboration and 
increased public awareness.
    A case study evaluation completed in July 2004 demonstrates 
positive results in counties that fully implemented four key 
components. What they found was that three of the four fully 
implementing counties saw an all-time low in the perceived 
availability of meth among high school seniors, which were 
counter to both state-wide trends and trends of comparison 
counties.
    All counties with available data saw improvement in 
reported rates of friends who used meth in the past year, and 
use of meth among high school seniors in the past 30 days 
decreased by as much as 24 percent from levels reported before 
project implementation.
    In the course of doing this work in Kansas and throughout 
the nation, we have gained significant knowledge. I wanted to 
share some key lessons for effective meth prevention.
    One is that meth is a multidimensional problem that demands 
comprehensive, coordinated solutions involving the 
collaboration of multiple community sectors. It cannot be 
solved by law enforcement alone, which is a common belief in 
many communities.
    Second, the need to build and sustain effective prevention 
infrastructures and communities must be instilled as a 
national, state and community value. As funding priorities 
shift and drug trends change, effective prevention efforts are 
often cut or eliminated.
    A coordinated effort to provide expert technical 
assistance, resources and training for communities is 
essential. The Safe and Drug-Free Schools and Communities 
program is the foundation on which other school-based 
prevention efforts are built, and it is critical.
    Effective meth prevention must be data-driven. And we have 
found that small amounts of startup funding can engage 
communities in comprehensive efforts to combat meth that 
leverage other community resources.
    I wanted to close with a success story from Rice County, 
Kansas which is very rural and has a population of about 10,000 
people. They implemented comprehensive efforts in early 2003 as 
a result of access to training, resources including mini-grant 
funding, and ongoing support from our project.
    Outcomes in the county show significant reductions in 
perceived availability of meth, friends who use meth and 
lifetime use. It is clear that prevention efforts can make a 
significant difference for communities working to address this 
meth problem.
    Thank you for the opportunity to testify about our 
experiences gained from working in Kansas and other states 
throughout the nation.
    [The prepared statement of Ms. Cain follows:]

  Statement of Cristi Cain, State Coordinator, Kansas Methamphetamine 
                     Prevention Project, Topeka, KS

    Chairman Castle, Ranking Member Woolsey and other distinguished 
members of the Subcommittee on Education Reform, thank you for the 
opportunity to testify before you today on behalf of the Kansas 
Methamphetamine Prevention Project. I am pleased to be able to provide 
information today about prevention efforts to address the 
methamphetamine problem in Kansas and across the United States.

The Impact of Meth:
    Methamphetamine production and use result in tremendous economic 
and social costs to communities across the nation including: law 
enforcement and incarceration; clean-up of clandestine lab sites; 
addiction treatment; domestic violence; theft, burglaries, and other 
property crimes; emergency medical treatment; HIV/AIDS; workplace 
violence; environmental contamination; murders and suicides. The Kansas 
Bureau of Investigation estimates the percentage of property crimes 
which are meth-related at approximately 50% for many Kansas 
communities. Meth-related health care costs have also increased 
significantly. It is estimated that the damage to the teeth of one meth 
user costs approximately $7,000 to repair (Lonna Jones, Supervisor, 
Sioux River Valley Community Dental Clinic, 2005). Other associated 
health care costs include treatment of overdoses, burns, and infectious 
diseases such as hepatitis B and C which are very common among 
injecting meth users. As meth users are jailed and incarcerated, many 
local and state governments must absorb these tremendous costs.
    Methamphetamine manufacture and use also lead to child abuse and 
neglect including exposure to environmental hazards, sexual abuse and 
other health issues (Dr. Wendy Wright, San Diego Drug Endangered 
Children Team, 2002). Children exposed to methamphetamine environments 
are at great risk for physical, emotional, and developmental harm. 
These children frequently suffer from respiratory conditions, are 
malnourished and experience developmental delays. Based on information 
from several Kansas hospitals, it is apparent many communities have a 
significant number of children born exposed to meth due to their 
mothers'' use of the drug during pregnancy. These children are six 
times more likely to have birth defects, and 30% more likely to be born 
pre-term, and experience neurological conditions. As they grow older, 
these children are highly likely to be diagnosed as ADHD and have 
impulse and anger control problems (Dr. Rizwan Shah, Blank Children's 
Hospital, Des Moines, Iowa). The cost of one meth-exposed infant over 
his or her lifespan can total over $1.7 million dollars. This estimate 
includes the costs to school systems for special education and other 
services for these children estimated at approximately $75,000 per 
child. (Dr. Dennis Embry, Paxis Institute).

The Kansas Methamphetamine Prevention Project:
    Efforts to address methamphetamine began in 1999 in Shawnee County, 
Kansas (pop. 169,871) as a pilot project. Using the Shawnee County 
project as a model, the Kansas Methamphetamine Prevention Project 
(KMPP) was implemented in October 2002 in response to the devastating 
consequences Kansas communities were experiencing from methamphetamine 
production and usage. KMPP provides training and technical assistance 
on comprehensive, community-wide strategies for addressing the 
methamphetamine problem that focus on both reducing the supply of and 
demand for meth. When efforts began in 2002, four statewide trainings 
of trainers were conducted. The purpose of the trainings was to 
demonstrate the need for communities to address the problem, provide 
key background information needed for community awareness, and provide 
resources needed for communities to quickly implement proven 
strategies. Additionally, participating communities were eligible to 
apply for minigrants which served as start-up funding for the 
implementation of methamphetamine prevention efforts. One key aspect of 
KMPP's success is that it teaches communities to be data driven in 
dealing with the meth issue. KMPP trains communities to collect and 
analyze baseline data to assess the level of their specific meth 
problem. Participating communities collect and analyze data from 
various sources such as: student surveys, law enforcement, prisons and 
jails, retail stores, treatment and other social service providers. 
Once they have a clear picture of the extent and consequences of the 
meth issues in their community, KMPP helps them implement a 
comprehensive array of evidence-based strategies and programs to 
address the meth issue, across the entire spectrum of community 
institutions and citizens that actually meet their community's specific 
needs. KMPP also teaches communities to use an online evaluation and 
documentation system to track their outcomes over time.
    To date, 66% of Kansas counties have implemented efforts to address 
methamphetamine through the assistance of KMPP. Additionally, KMPP has 
assisted 38 states by providing training, technical assistance and 
resources. KMPP has also assisted with the implementation of a national 
model for engaging retail stores, Meth Watch.
    KMPP has found that the success of meth prevention efforts is 
dependent upon the extent to which schools, law enforcement, parents, 
businesses and other community systems and groups work comprehensively 
and collaboratively to implement a full array of education, prevention, 
enforcement and treatment initiatives. KMPP has modeled this 
comprehensive approach itself, by partnering in the development and 
implementation of its entire program with a wide variety of 
interdisciplinary partners including: Kansas Bureau of Investigation; 
Kansas Department of Health and Environment; Midwest HIDTA; Kansas 
Regional Prevention Centers; K-State Research and Extension; Kansas 
Social and Rehabilitation Services; Addiction & Prevention Services & 
Children and Family Policy Division; Kansas National Guard; Shawnee 
Regional Prevention and Recovery Services; Kansas Family Partnership/
RADAR Network; Kansas Farm Bureau; Sedgwick County District Attorney's 
Office; United States Attorney's Office-Wichita; Community Systems 
Group; and the University of Kansas.
    The specific array of strategies and programs that have been 
developed for communities to implement through KMPP are organized into 
the following four core component groups: (1) build public awareness; 
(2) provide targeted education and skills building; (3) change specific 
features of the environment; and (4) seek relevant changes in policies 
and practices of key local institutions.

Build Public Awareness:
    Community Awareness: Focus on educating multiple community sectors 
about how to identify and report methamphetamine activity and how to 
address the meth problem in a community. Awareness activities include 
town hall meetings, trainings, community-specific educational 
materials, and implementation of Neighborhood Watch. Sectors targeted 
include parents, property owners, hotel/motel employees, neighborhood 
residents, chance encounter occupations including realtors, gas service 
employees, and hunters, judges, prosecutors, day care providers, child 
protective service workers, and health care professionals.
    Media: Efforts include public service announcements for television 
and newspapers, news conferences, billboards, and press releases with 
subsequent coverage of events. The Project has a website which provides 
access to information about strategies and resources. Additionally, a 
quarterly E-newsletter is distributed to individuals in communities 
across the state with updated information about resources available, 
legislation, training opportunities, and current trends.
    First Responder Training: Provides emergency personnel current 
information for recognition of methamphetamine activity and appropriate 
responses.
    Safety Training for Home Visitation Professionals: Training was 
designed for social workers and other professionals who enter homes 
where meth activity may take place after it was discovered that these 
employees, who are mostly female and enter homes alone, have limited 
safety training. The training focuses on recognition of meth activity 
and safety information.
    Web-based Training: Two trainings accessible via the Internet have 
been created. One is geared toward social service professionals and one 
provides general information about methamphetamine.

Change Specific Features of the Environment:
    Meth Watch: Created in Kansas in 2000, Meth Watch utilizes signage 
to deter theft and purchase of precursor products in retail stores, 
includes an employee training program, educates customers, and 
encourages reporting of suspicious transactions to law enforcement. 
Outcomes include reduced thefts of precursor products and increased 
arrests based on intelligence from retail personnel.
    Rural Strategies: Focus on educating farmers and ranchers about 
preventing theft of anhydrous ammonia by making tanks less accessible 
and utilizing surveillance equipment. One strategy to inform farmers 
their tanks had been tampered with were 18 inch stainless steel tamper 
tags. 75,000 tamper tags have been distributed across Kansas. 
Additionally, Shawnee County implemented a pilot project placing a 
locking device on every anhydrous ammonia tank in the county. An 
evaluation will be completed to determine the effectiveness of the 
project. Evaluation results from other states have demonstrated 
reductions in the anhydrous ammonia method of manufacturing in 
communities with locks.

    Provide Targeted Education and Skills Building:
    School and Youth Involvement: Partner with Safe and Drug Free 
Schools programs to insure that effective drug prevention curricula and 
programming are implemented in the schools; usage of meth-specific 
curriculum created by Midwest High Intensity Drug Trafficking Area; 
presentations to youth in schools; in-service trainings for teachers 
and other school staff; special events in schools; involving existing 
youth organizations (e.g. SADD, 4-H, Future Farmers of America)
Relevant Changes in Policies and Practices in Key Institutions:
    Legislation: Kansas passed a Schedule V law which went into effect 
June 1, 2005. All cold medications with ephedrine or pseudoephedrine as 
the active ingredient in starch form are available at pharmacies only. 
Sales are limited to 3 packages in a 7 day period. Customers must show 
identification and sign a pharmacy log. The law was passed in response 
to an increase in activity after Oklahoma passed a similar law in 2004. 
Early indicators suggest a significant reduction in methamphetamine lab 
seizures as a result. Another law passed was an increase in the penalty 
for meth-related activity in the presence of a child from a misdemeanor 
to a felony.
    Other changes in policies and practices have included utilization 
of reporting forms by law enforcement agencies, gaining cooperation 
from retail stores in implementation of components of Meth Watch, 
policy changes in how community agencies provide services for children 
found in methamphetamine environments, and implementation of screening 
systems to identify use of substances by pregnant women.

Other Strategies:
    Drug Endangered Children (DEC) Programs: Kansas has state level 
efforts and local efforts to assist children who have been affected by 
their parents'' meth use and manufacture. The Kansas Alliance for Drug 
Endangered Children provides oversight, training and technical 
assistance to communities implementing DEC programs. Thirty-one Kansas 
counties have DEC programs. One county, Shawnee, has implemented a 
pilot project designed to address substance-exposed newborns.
    Minigrants: Start-up funding awarded to communities for 
implementation of meth prevention and education efforts.
    Resource materials: Include a community methamphetamine prevention 
kit that contains a 15 section manual with in-depth information about 
implementation of strategies; a CD-rom with presentations for multiple 
target audiences, videos, brochures, press releases, statistics, and 
multiple documents which can be updated with community specific 
information; and other materials; and quick reference cards for home 
visitors.

Outcomes in Kansas:
    In July 2004, the Community Systems Group completed a case study 
evaluation of KMPP. KMPP showed positive results in the perceived 
supply of methamphetamine, demand for methamphetamine, and in the use 
of methamphetamine among high school seniors in the October 2002-
September 2003 time period. These positive results occurred in counties 
that fully implemented the Project's four recommended components and 
are based on case studies of intervention and comparison counties. More 
than thirty-five counties in Kansas began implementing the four core 
components of the KMPP in 2003. Counties implementing efforts reported 
decreases in thefts of precursor products, reduced usage by youth, 
reductions in perceived availability by youth, improved collaboration, 
and increased public awareness.
    Four counties were able to achieve ``full implementation'' in the 
first twelve months. A county is considered to be ``fully 
implementing'' when all four of the core components are put in place 
and have widespread/county-wide adoption. Given that the only specific 
financial resources provided to local communities for this 
comprehensive meth prevention program came in the form of minigrants 
(most were for less than $1,000), it is a testament to how important 
the meth problem is in these counties that key leaders stepped forward 
and provided the time, resources and assets of their local community to 
support project implementation. For the fully implementing communities, 
the investment of substantial local resources appears to be paying off.
    Key findings of the case studies include:
    Three of the four fully implementing counties saw an all time low 
in the perceived availability of meth among high school seniors.
    These improvements in perceived availability ran counter to both 
statewide trends and the trends of comparison counties.
    All counties with available data saw improvement in reported rates 
of friends who used meth in the past year (to rates that were a 
historical low).
    For counties with available data, use of meth among high school 
seniors in the past thirty days decreased by as much as 24% from levels 
reported before project implementation.

Ten Lessons for Effective Meth Prevention:
    1. The meth problem will not be solved through law enforcement or 
any single sector alone. Meth is a multi-dimensional problem that 
demands comprehensive, coordinated solutions involving the 
collaboration of multiple community sectors including law enforcement 
and other first responders, health care professionals, social service 
providers, treatment providers, retailers, farmers and ranchers, youth, 
schools, parents, faith communities, court system representatives and 
media.
    2. The need to build and sustain effective prevention 
infrastructures in communities must be instilled as a national, state 
and community value because as funding priorities shift and drug trends 
change, effective prevention efforts are often cut or eliminated. In 
Kansas, the utilization of a statewide prevention infrastructure which 
includes a Regional Prevention Center system that provides training and 
technical assistance to communities across the state, access to data 
from the statewide Communities that Care school survey, and utilization 
of an online evaluation and documentation system at the University of 
Kansas was a key to efficient local and state level implementation of 
meth prevention efforts.
    3. The provision of expert technical assistance, resources and 
training for communities is essential. Success was related to a 
coordinated, reliable organization which could provide current 
information relevant to their community about the issue, data to 
demonstrate the need for efforts, and support for ongoing efforts.
    4. The Safe and Drug Free Schools and Communities program is the 
foundation on which other school based prevention efforts are built. 
The program provides the only portal into schools for community anti-
drug efforts. This program is a component of any comprehensive strategy 
to address meth issues in communities around the country.
    5. Effective meth prevention must be data driven, from the initial 
collection of baseline data to determine the extent of the problem 
through program implementation and evaluation of outcomes over time.
    6. Programs and policies can be implemented at the state level but 
community-level involvement and buy-in is essential for meth prevention 
to work and obtain measurable results.
    7. Small amounts of start-up funding can engage communities in 
comprehensive efforts to combat meth that leverage other community 
resources and major levels of citizen involvement.
    8. In communities with existing coalitions to address substance 
abuse, efforts were more quickly implemented and had more success.
    9. To be optimally effective, communities need to pick the specific 
programs they implement, from the four core program components, to fit 
their local needs, based on local data and circumstances.
    10. Establishing a model program in one community that could then 
be adapted and replicated across communities led to faster, efficient 
implementation.

A Community Success Story:
    Members of an existing coalition in Rice County (population 10,412 
and a land area of more than 700 square miles) attended the KMPP 
training-of-trainers in November 2002. Because of access to training, 
resources including minigrant funding, and ongoing support from KMPP, 
the coalition was able to quickly implement key components. Before 
working with KMPP, county officials reported that no one had the time, 
money, or expertise to implement methamphetamine prevention efforts.
    Rice County's efforts included county-wide implementation of Meth 
Watch, implementation of rural strategies including education and 
tamper tags, extensive media coverage, significant information 
dissemination which included meth prevention tips being distributed to 
14,000 people in the region through partnerships with banks, prevention 
efforts in schools, and utilizing community events as a venue for 
reaching citizens to inform and involve.
    Results from the Rice County youth survey appear strong. Perceived 
availability and reported rates of friends who use were both down 
significantly. The rate of lifetime usage of meth declined from an all-
time high of 13.8% in 2003 to 5% in 2004, which was below the state 
average of 6.4%. High implementation paired with a comparatively 
smaller community may have resulted in a higher ``dose'' of the 
intervention for the community. Where comparison counties'' rates of 
perceived availability either worsened or stayed the same, Rice 
County's results improved. Furthermore, only Rice County saw results 
that represented historical lows for all the outcomes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is clear that prevention efforts can make a significant 
difference for communities working to address the methamphetamine 
problem. Thank you for the opportunity to testify about our experiences 
gained from working in Kansas and other states throughout the nation.
                                 ______
                                 
    Mr. Osborne. Thank you very much.
    I would like to thank the panel. I apologize for the timing 
of these votes, but they never seem to come at a good time. And 
so we will probably go over and name a post office or do 
something really critical today.
    But we do thank you for your written testimony. It will be 
very valuable. We will use this to elevate the issue before 
Members of Congress. Your being here, your presence, is 
important. And we want to thank you for coming very much.
    So since there is no further business, the subcommittee 
stands adjourned. Thank you for being here.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
